<html>
<title> - SOUTH SUDAN: OPTIONS IN CRISIS</title>
<body><pre>[Senate Hearing 114-713]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-713

           INSERT TITLE HERESOUTH SUDAN: OPTIONS IN CRISIS

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             SECOND SESSION



                               __________

                INSERT DATE HERE deg.SEPTEMBER 20, 2016

                               __________



       Printed for the use of the Committee on Foreign Relations







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]












                   Available via the World Wide Web:
                        http://www.fdsys.gpo.gov







                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-083 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





















                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
              Rob Strayer, Majority Chief Counsel        
            Margaret Taylor, Minority Chief Counsel        
                    John Dutton, Chief Clerk        


                              (ii)        

  























                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     3

Madut Jok, Ph.D., Jok, co-founder and executive director, The 
  Sudd Institute, Los Angeles, CA................................     4
    Prepared statement...........................................     6

Knopf, Hon. Kate Almquist, director, Africa Center for Strategic 
  Studies, U.S. Department of Defense, Washington, DC............     9
    Prepared statement...........................................    11

Kuol, Luka Biong Deng, Ph.D., global fellow, Peace Research 
  Institute Oslo, Oslo, Norway...................................    17
    Prepared statement...........................................    19

Yeo, Peter, president, Better World Campaign, and vice president, 
  Public Policy and Advocacy, United Nations Foundation, 
  Washington, DC.................................................    22
    Prepared statement...........................................    24

              Additional Material Submitted for the Record

Material Submitted for the Record by Dr. Paul R. Williams, 
  Rebecca I. Grazier Professor of Law and International 
  Relations, American University, Washington, DC.................    47




                             (iii)        

  

 
                     SOUTH SUDAN: OPTIONS IN CRISIS

                              ----------                              


                      TUESDAY, SEPTEMBER 20, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:45 p.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Flake, Gardner, 
Cardin, Shaheen, Murphy, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order. We thank our witnesses for spending their time with us 
and sharing insights that I know will be valuable.
    It has been nearly a year since we last discussed the 
unwillingness of the South Sudanese officials to govern 
responsibly. Despite the significant efforts of the U.S. and 
the international community, violent impunity persists.
    As this crisis erupted in July, President Kiir's forces 
apparently fired on U.S. diplomatic vehicles, shot and injured 
a U.N. official, terrorized American and other aid workers, and 
executed a South Sudanese journalist.
    President Kiir consolidated control after yet another 
contrived military action against his former deputy, Riek 
Machar. Kiir's recent replacement of Machar with a poorly 
supported opposition alternative likely invalidates the unity 
government and the August 2015 peace agreement itself.
    I think it calls into question what our U.S. commitment 
should be with others. I know there is a range of options that 
we will explore today as we hear from you.
    South Sudan achieved independence in 2011 after a desperate 
effort to break free from a violent and oppressive Sudanese 
Government. Tragically, South Sudan's leaders followed a 
similar repressive path targeting women and children, killing 
civilians, and targeting refugees and humanitarians for rape, 
torture, and death.
    Five years on, South Sudan remains desperately reliant on 
international assistance, yet its government persists in 
inflaming the circumstances for famine and war. One in five 
South Sudanese have fled their homes, and over 1 million 
refugees have fled their country to safer places, unbelievably 
such as Darfur, which just a few years ago was certainly not 
perceived as that.
    The international community has long held off imposing 
sanctions with vague hope that responsibility will somehow 
emerge. The inclination to rob, cheat, and kill has persisted, 
as evidenced by recent violent events and legitimate reports of 
gross corruption of Kiir, Machar, and their cronies who 
continue to divert dwindling resources.
    Let me just say an exclamation point here. This has turned 
out for both of them to be all about one thing, and that is 
money, using their own people against each other, who are being 
systematically killed over their desire, each of their desire, 
from my perspective, to loot their country and to enrich 
themselves personally.
    July's violence once again exposed limitations of South 
Sudan's U.N. peacekeeping mission, which is unable to meet the 
mandate to protect civilians under U.N. protection, including 
those being raped yards from their gate.
    Again, I don't know how many times we are going to hear of 
our peacekeeping efforts falling short. I know this is a unique 
circumstance, but I believe the U.N. has been totally feckless 
as it relates to addressing this issue. Again, I know these 
people are overstretched right now in South Sudan, but it 
continues to be a persistent problem with U.N. peacekeeping 
troops.
    UNMISS is tested and already stretched the limits of 
peacekeeping missions, and with the addition of Protection of 
Civilians sites and a proposed regional protection force, one 
must ask, is this a recipe for failure?
    I am interested in hearing today from our distinguished 
witnesses how the international community can sustain 
humanitarian effort in South Sudan while fundamentally changing 
the dynamic with actors in South Sudan, including regional 
sanctions.
    I welcome our witnesses, two of whom bring a critical on-
the-ground perspective as well as perceptions of international 
efforts to date as we consider what is happening and 
alternative options.
    I want to thank you for being here and turn to our 
distinguished ranking member, Ben Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Chairman Corker, first of all, thank you 
very much for convening this hearing.
    The question is whether the youngest country in the world 
can survive, and I think I am not overstating our concerns. The 
hearing we held last December we thought would focus the 
different stakeholders into a plan that will allow the people 
of South Sudan to have a government that can protect their 
interests. Instead, we see a circumstance that was bad last 
December get worse, where it has used attacks on the civilian 
population as a military tactic.
    You mentioned Darfur. And although every circumstance is 
different, the human tragedies that we are witnessing in South 
Sudan do remind us of what was happening in Darfur. It cannot 
continue, and the international community cannot allow these 
atrocities to continue forward.
    I can give you many examples. The July fighting between the 
warring factions, the U.N. High Commissioner for Human Rights 
estimates hundreds of civilian deaths, including over 200 raped 
civilians by the militaries. International aid workers in the 
Terrain compound beaten, shot, and gang raped by government 
forces while the national security forces stood by and did 
nothing. U.S. Embassy personnel, as you pointed out, being 
fired upon by government officials. The government refusing to 
allow medical evacuation of wounded peacekeepers. That is so 
contrary to any established international protocols or rules.
    And then the status of forces agreement of the United 
Nations, the use of the Rapid Protection Force, which, Mr. 
Chairman, I will tell you I think is critically important for 
South Sudan to have the presence of the international body. And 
yet the government is restricting what equipment they can take, 
what countries they come from, and preventing them from doing 
their mission. So how can they operate? How can they do their 
work without the government help and support?
    And it is a failure of the leaders in the peace process. We 
had great hope about the peace process moving forward, and 
President Kiir and Vice President Machar, replaced now by Mr. 
Deng, none have shown true leadership, and all, I believe, are 
complicitous in the atrocities that have taken place.
    And then there is no accountability. There is impunity for 
these actions. We have seen no effective way in which the 
government has held those who have committed these abuses 
accountable for their actions.
    Last December, I asked whether the peace process was viable 
and what the international community plans to do should the 
parties abandon it.
    The peace agreement, if not dead, is certainly on life 
support. The economy is in shambles. Nearly 5 million people 
need food aid, which will be difficult to deliver in wake of 
the alleged looting of the World Food Program compound and 
increasing threats against humanitarian personnel.
    Violence continues to flare in various parts of the 
country, and the credibility of the South Sudan leaders has 
been severely compromised by their attacks on their own 
civilians.
    You add that all up, if South Sudan is not a failed state, 
it is certainly a state which has badly failed its people.
    The question is, what can we do to help the people of South 
Sudan from the suffering that they are currently being 
subjected to?
    I look forward to hearing from our witnesses as to how we 
can help the people of South Sudan.
    The Chairman. Thank you, Senator Cardin.
    We will now turn to our witnesses. On the panel today we 
will hear from private witnesses representing South Sudan civil 
society as well as academic and advocacy institutions.
    Our first witness is Jok Madut Jok.
    I hope I pronounced that correctly.
    Dr. Jok. You got that right.
    The Chairman. I am surprised at myself. Thank you.
    He is co-founder and executive director of The Institute of 
South Sudan and currently a professor at Loyola Marymount 
University in Los Angeles, California.
    Thanks for traveling that far to be with us.
    Our second witness is the Honorable Kate Almquist Knopf, 
the director for the Africa Center for Strategic Studies at the 
National Defense University and the former assistant 
administrator for Africa at USAID.
    Thank you.
    Our third witness is Dr. Luka Biong Deng Kuol--how did we 
do? Again, a surprise--the global fellow of the Peace Research 
Institute at Oslo, Norway, as well as a fellow at Rift Valley 
Institute, South Sudan.
    Thank you for being here.
    Our last witness is Mr. Peter Yeo--thank you for that 
simplicity--the president of the Better World Campaign and vice 
president for public policy and advocacy at the United Nations 
Foundation.
    We are very fortunate to have all of you here. If you would 
just begin your testimony in the order that I introduced you.
    Without anybody objecting, your full written testimony will 
be entered into the record. So if you can summarize, we would 
encourage you to do so in about 5 minutes.
    With that, if you would begin, we would appreciate it. 
Thank you.

  STATEMENT OF JOK MADUT JOK, PH.D., CO-FOUNDER AND EXECUTIVE 
     DIRECTOR, THE SUDD INSTITUTE, LOS ANGELES, CALIFORNIA

    Dr. Jok. Thank you very much, Chairman Corker, Ranking 
Member Cardin, and committee members. Thank you very much, 
indeed, for inviting me here today. I also want to thank the 
committee for keeping South Sudan a topic of discussion in 
Washington for quite a bit of time now.
    The views I express here are my own and not those of The 
Sudd Institute, where I am the executive director.
    In addressing the crisis of South Sudan, I would like to 
shift the discussion slightly away from the focus that has been 
put on the contending leaders of South Sudan and try to show a 
little bit about what life is like for South Sudanese.
    Much of the crisis that is engulfing the country today is 
one of two issues, really. The first is the burden of the war 
of liberation, which went on for so long and made South Sudan 
one of the most destroyed corners of the world since the Second 
World War.
    There were promises made at the end of the war that the 
burden of that war would be offloaded by programs of 
government, and that program was not forthcoming. It didn't 
happen. There were no programs put in place to manage the 
expectations of the South Sudanese.
    And the country was born into too much wealth, resources 
that fell into the hands of liberators who had really not seen 
such an amount of money ever in their lives. And they went on a 
shopping spree and did not invest in the future of the country 
and the people of the country.
    These individuals had undoubtedly done so much to make the 
birth of the country possible, but nearly all of them quickly 
became disconnected from the realities of everyday citizens. 
They did not think that the oil money would ever run out.
    And I am talking about those people who are in office today 
as well as people who are no longer in office who were party to 
that looting and corruption, and siphoning off of national 
resources into foreign businesses, and buying of homes and 
other kinds of investments outside the country.
    Now the second of course is that while we might focus on 
the peace agreement and the people who signed this peace 
agreement, my reading of the situation is that the country is 
becoming undone at the seams. And the conflict that is 
engulfing the country, while we are struggling to reconcile the 
political-military elite, these leaders are only able to 
continue to draw from their supporters to continue this useless 
war because of their ability to divide people, and the 
divisiveness that removes the political loyalties from issues 
and onto personalities, personalities that come from a specific 
ethnic background.
    And as a result, I say that the situation that I describe 
as causing the country to become undone at the seams can be 
represented by what is going on since 2007, 2008, where in 
Jonglei, for example, and in Eastern Equatoria in Warrap state, 
and Lakes, South Sudanese killed each other more than northern 
Sudan was able to kill in a single period.
    And all of this is because the expectations of the people 
were not prioritized by these leaders once they got the 
country.
    Now I was recently in Wau State and Gogrial State, which is 
the home state of the President. I was also in the northern 
part of Tonj State. And my assessment of the situation there 
was that the recurring sectional warfare that has plagued the 
country over the years is continuing to affect people and their 
ability to produce crops and to look after their livestock and 
to look after their entire livelihood. Even in places that have 
not been impacted directly by the violent crises going on in 
Juba, these areas are now also drawn into the conflict because 
of the inaction at the national level.
    On the diplomatic front, there has been no marked progress 
since the U.N. Security Council Resolution 2304 to deploy an 
additional 4,000 forces. This issue has become a very divisive 
issue as well.
    The verdict is still out, and I don't think we will ever 
get a collective verdict on this. But it seems that South 
Sudanese agree that they are not holding their breath on this 
issue. Those who are opposing it say that it will not solve the 
problems. It will cause division. Those who are supporting it 
say that it does not give them confidence that it will protect 
their lives, since it will be strictly based in Juba.
    So what could the world community do to help South Sudan? 
It is my considered position that the country has been on life 
support for over 2 decades already. And this has produced two 
glaring realities that are usually not discussed with honesty.
    First, the international community has always bailed South 
Sudan out----
    The Chairman. Has always what? I didn't hear that.
    Dr. Jok. The international community has always bailed the 
leaders of South Sudan from their responsibility to protect the 
welfare of their people. They have always had somebody 
intervening to help the people.
    As a result, the international community assistance, 
especially the humanitarian assistance, may be keeping some 
people alive, but it has really become an alibi for failure of 
the leadership in South Sudan.
    The South Sudanese have never really been pushed very hard 
against the wall to the point where they have to step back and 
say let's think for ourselves.
    And so I suggest that the humanitarian aid has contributed 
to prolongation of this conflict and to leaders not being able 
to really have a program of welfare for their people.
    So we should really renew discussion on what to do with the 
humanitarian aid. Yes, it has kept some people alive, and there 
are people who are living in very miserable conditions right 
now who are living because of the international aid. But they 
still get killed in the end.
    So if the international aid is prolonging conflict, I am 
willing to suggest that we rethink this even at the risk of 
some people dying.
    Finally, I am not suggesting that aid is bad, but aid that 
does not show results and does not have massive impact, even 
despite the massive investments--the United States Government 
has invested close to $11 billion since 2005 in South Sudan.
    The Chairman. We have four panelists, if we could come to a 
close, that would be helpful.
    Dr. Jok. I'll conclude.

    [Dr. Jok's prepared statement follows:]

                Prepared Statement of Dr. Jok Madut Jok

    Chairman Corker, ranking member, and members of the committee, 
thank you very much for inviting me here today. I also want to thank 
this committee for its steadfast support and focus on keeping 
discussions going on within the American government about the crises 
facing South Sudan. The views I express here are my own and not those 
of the Sudd Institute, where I am the executive director.
    In addressing the crises of conflict, failure of political 
settlements, the violence that is unnecessarily taking the lives of 
South Sudanese and the humanitarian problems that confront a vast 
number of South Sudanese, I would like to slightly shift the focus away 
from the elite-centered neo-liberal peace-making and onto the level of 
what life is like for the ordinary people of South Sudan and how I see 
them being best assisted to tackle the violence that is imposed on 
them.
    Much of the crises confronting South Sudan today, insecurity, 
poverty, economic decline, violent political conflicts, disunity along 
ethnic or regional fault lines, are really born of two sources. First, 
the burdens left behind by the long wars of liberation, which made 
South Sudan the most war-devastated corner of the world since the World 
War. Second, South Sudan started on the wrong foot at the time of 
independence. There were no programs put in place to manage the 
expectations of South Sudanese who had suffered so terribly and for so 
long. The country was born into too much wealth, resources that fell 
into the hands of the liberators who had not seen such wealth before 
and who clearly opted to pay themselves and went on a shopping spree, 
showing very little willingness or ability to develop programs to lift 
the country out of its war time miseries.
    These individuals had undoubtedly done so much to make the birth of 
their country possible, but nearly all of them quickly became 
disconnected from the realities of everyday citizens. They did not 
think the oil money would ever run out. These include many people who 
held high positions in security agencies, the military and cabinet 
portfolios, and who are no longer part of the government today or are 
in opposition but were a part of that corrupt system that put the 
country on the wrong path from the beginning. They kept making promises 
to their people that roads, basic services, security, economic 
development and political stability would all accrue, but no clear 
programs to give people reason to hope and to be patient. Instead, 
South Sudan was plagued by corruption that quickly ushered the country 
into a deeply divided society between the small class of new rich and 
the vast majority of citizens who had nothing. A very strong 
corruption-insecurity nexus developed straight away and South Sudanese 
were hammering each along ethnic lines immediately following the end of 
north-south war. From Jonglei to Lakes, Warrap to Eastern Equatoria, 
more South Sudanese were killed by their own than had been the case at 
the hands of the north in a similar period. These were the realities 
that catapulted the country onto the path of war that exploded in 
December 2013, a war whose triggers had been in the making since 2005.
    So while the conflict that has engulfed the country today is 
essentially a struggle for power between the politico-military elites 
at the center, these leaders are only able to draw everyone into their 
senseless war because the country's citizens have long been so deprived 
of basic necessities and so pitted against one another along ethnic 
lines that so many ordinary people came to think that their survival 
rests with giving support, military and otherwise, to their ethnic 
leaders. This means that even as the world struggles to reconcile the 
leaders and help them sign peace agreements and create power-sharing 
arrangements and make plans to develop professional security agencies, 
the truth remains that these leaders in essence hijack and appropriate 
ordinary people's real grievances and turn them into stepping stones 
into public office. The result is that their peace agreements never 
really address the question of why people join these wars in the first 
place, why these agreements collapse as soon as they are signed. The 
answer is that the real grievances at the level of everyday people get 
swept away during the political settlements, only for these grievances 
to keep brewing, waiting for a few disgruntled politicians or military 
leaders who feel excluded from the settlements to return to their 
already unhappy constituencies with appeals to fight whoever they 
believe has kept them out of power.
    This situation is the main reason why there may be a peace 
agreement in place and the political leaders might agree to work 
together, divide power and resources, especially in Juba and in state 
capitals, but never manage to stop violence in the rest of the country. 
As we speak, the political arrangements that the SPLM-lead government 
in Juba and the various opposition parties that have joined it to form 
the Transitional Government of National Unity (TGoNU), are sitting on a 
powder keg of turmoil that is bound to explode throughout the country. 
For example, Riek Machar is in Khartoum and no one knows what he and 
his fighting forces are up to. Most likely, they are planning to resume 
the war, as signalled just two days ago by an attack on a town called 
Nhialdiu, not so far from Bentiu, the state capital of Unity, which saw 
some of the worse episodes of violence in 2014. If Riek is determined 
to get his position as First Vice President back, this would plunge the 
country, especially the whole of Upper Nile, back in the kinds of 
vicious violence we witnessed in 2013-2015. In Equatoria, people 
traveling on the road linking Juba to the Uganda border, the country's 
life line, have been attacked numerous times, killing people and 
destroying property being transported on this road. Other roads in the 
region, especially the ones linking Juba to Yei, Morobo, Kaya and on to 
Koboko in Uganda, another vital route for the citizens and traders of 
this region and the country at large, have also come under attack 
numerous times, particularly in the past 2 months. The government has 
not been able to assure people that it has the capacity to protect life 
and property. The government has not even admitted that it is fighting 
widespread rebellion throughout the country.
    I was recently in Wau State, Gogrial State, the home state of the 
country's president, Salva Kiir Mayardit, and in Tonj State, and my 
assessment of the situation there is that the recurrent sectional 
warfare that has plagued the region over the years is continuing to 
affect people's ability to produce crops and look after their 
livestock. Even in places that have not been impacted directly by the 
violent crisis between the government and opposition are being impacted 
by the broader national crisis. Areas that are not part of the 
``current war'' are affected by other types of violence, like ethnic 
feuds and crime. In Jonglei, ethnic rivalries and violent 
confrontations between the Murle, Dinka and Nuer ethnic groups, have 
continued to wreak such havoc in that region that large numbers of the 
Dinka sections have continued to flee the area. All these ethnic or 
sectional fights are not only making life unbearable in these areas but 
are also a sign that the country is becoming undone at the seams. Juba 
might be able to consolidate political power and get the best of the 
various power contenders, but the country is likely to remain 
ungovernable, if it does not disintegrate entirely.
    On the diplomatic front, no marked progress has been made since 
UNSC resolution 2304 to deploy an additional 4000 regional force to 
join the existing UNMISS to protect civilians better. The visit of the 
UNSC ambassadors, the threats to impose an arms embargo on the country, 
should the government prove uncooperative on the deployment of this 
force, and the likelihood that this force would make a difference in 
protection of civilians, have been subject of much debate among South 
Sudanese and people in the region. There can never be a collective 
verdict, as the issue of an intervention force is a very divisive 
issue, but both the opponents and supporters of such a force seem to 
agree that they are not holding their breaths on two accounts. First, 
deployment of the force might not actually come to pass, given that 
there is still uncertainty about troop contribution, financing and 
agreement on the modalities of deployment. Second, the fact that the 
force would be strictly based in Juba does not provide much confidence, 
especially among civilians living in all the various embattled 
communities throughout the country, that they would feel any benefit 
from a force based so far away.
    What could the world community do to help the people of South 
Sudan? It is my considered position that the country has been on a 
life-support for over two decades and this has produced two glaring 
realities that hardly anyone has thought of or explore with 
seriousness.
    First, the international community has always bailed South Sudanese 
leaders out of their responsibility for the welfare of their people. In 
other words, international assistance, especially the humanitarian 
interventions, may be keeping some citizens alive, but will never 
amount to a solution to what is essentially a political and social 
crisis. So, to keep going with it is to merely keep the country on a 
life-support, without any conception as to how long and to what end 
this approach should be maintained; or to sever it at the risk of 
losing lives of so many people who have come to rely on food aid for 
quite sometime.
    Second, South Sudanese have never really been pushed tightly 
against the wall to the point where they have to think for themselves. 
It has always been a story of crisis, followed by a bail out from the 
world community, and another crisis, followed by another intervention. 
I suggest that there should be a discussion on ways to wean South Sudan 
from food aid, not as a punishment to the citizens who are still living 
in very disastrous circumstances, but as a challenge to South Sudanese 
leaders to come up with their own plan about how they see their country 
able to steer its way out of this crisis. It does not make sense that 
the country remains with the same programs that have kept the country 
from taking responsibility for its own future should be supported by 
the global community.
    I am not suggesting that aid is bad, but aid that shows very little 
impact for the massive investments made is a waste of resources and a 
straight jacket for the country. If aid must continue as a way to 
maintain a moral posture, if the West must continue to be seen to be 
taking responsibility and a mere symbolic gesture from the world 
community, then we should at least try to do it differently, not in the 
same way we have done it since 1989 when Operation Life-line Sudan was 
created. The approach since 2005 has been state-building, strengthening 
the institutions of the state, with the hope that the state would then 
turn around and take responsibility for the provision of goods and 
services. While it is important to build institutions, this is a 
process that takes a generation or more. Why should communities living 
far away from Juba or other cities be waiting for these goods and 
services until such time the state is ready to do it?
    A new approach would be to inject aid directly into small 
community-run projects, not channeling it through the bureaucracy of 
the government. If you take a look around the country, one observes 
that community-run projects or those championed by local NGOs, are the 
only products of foreign aid that you see all around the countryside. 
Peace should not be seen as an act of signing peace agreements between 
the elite but more a process of addressing the drivers of conflict at 
the level of society, including investing the youth in the country's 
success and economy so that they have a future to look forward to, an 
investment they would fear to lose if they respond to anyone's war 
drums.
    If the international community, particularly the American people 
and their government, continue to see a crucial role for the U.S. in 
stabilizing South Sudan, it would be best to engage with an eye to 
challenging the leaders of South Sudan produce their plan so that the 
role of outsiders to support a clear project that is well-developed, 
addressing the priorities of South Sudan from the perspective of the 
people of South Sudan. Such a plan should focus on security, addressing 
the massive humanitarian crisis (IDPs, refugees and famine), 
stabilizing the economy, including a robust anti-corruption mechanism, 
justice and reconciliation and respect for human rights and civic 
liberties. It is then and only then would this leadership have a moral 
ground for requesting help from the international community. Such help 
if, it is well-justified and credible, would only be a support to that 
which is a national plan. If the people and government of the United 
States are going to continue to stand by the people of South Sudan, as 
they have done for many decades, there has to be a seriousness on the 
side of U.S. law makers and the executive branch of the government to 
put in place strong mechanisms to ensure accountability for U.S. 
resources and to ensure that these resources actually make a 
measureable difference in the lives of South Sudanese--in Juba and 
across the country. Quoting how much money the U.S. has spent on South 
Sudan for the last ten years is not sufficient, we must ask what it was 
spent on and what are the results.


    The Chairman. Thank you so much for being here. I 
appreciate it.
    Ms. Knopf?

STATEMENT OF HON. KATE ALMQUIST KNOPF, DIRECTOR, AFRICA CENTER 
FOR STRATEGIC STUDIES, U.S. DEPARTMENT OF DEFENSE, WASHINGTON, 
                              D.C.

    Ms. Knopf. Chairman Corker, Ranking Member Cardin, members 
of the committee, thank you for convening this hearing and for 
inviting me to speak today. The views I express are, of course, 
my own and not those of the U.S. Government.
    After 2 decades of experience with South Sudan, I remain 
firmly convinced that the United States' support for the self-
determination of the people of South Sudan was and still is 
necessary for lasting peace for the country.
    I am equally convinced, however, that Americans and South 
Sudanese alike must acknowledge that South Sudan has failed its 
people. It is past time to abandon the myths regarding the 
health of South Sudan's political culture, the capacity of its 
leaders, and the potential impact of technical interventions 
alone from development assistance to peacekeeping. Just as many 
of these myths misled us during the interim period, they 
continue to underpin U.S. policy today.
    Mr. Chairman, as my written testimony discusses these myths 
in more detail, I will bypass that now in order to focus on an 
alternative way forward for South Sudan.
    Suffice it to say, however, that I do not believe that the 
agreement signed in August 2015, remains a viable path toward 
peace, nor that Salva Kiir and Riek Machar can be part of a 
solution to ending the war. They are irredeemably compromised 
among broad segments of the population, and they are innately 
divisive, rather than unifying.
    Let me also underscore that neither Kiir nor Machar can be 
excluded while the other remains. The United States' tacit 
support for Kiir's removal of Machar from the transitional 
government, an effort to isolate him, has unwittingly given 
Kiir a blank check to pursue an increasingly militant policy of 
Dinka domination. It has also signaled to all those who oppose 
Kiir that there is no political pathway to end the war and that 
violent overthrow of Kiir's regime is their only means of self-
preservation.
    We should not, therefore, underestimate that the already 
horrific war could escalate into genocide at any time. Too many 
of the warning signs are already there.
    My proposal, therefore, is predicated on a clear diagnosis 
that South Sudan has failed at great cost to its people and 
with increasingly grave implications for regional security, 
including the stability of important U.S. partners in the Horn 
of Africa.
    Mr. Chairman, South Sudan has ceased to perform even the 
minimal functions and responsibilities of a sovereign state. 
Nearly one-third of the country has been displaced or sought 
refuge outside, and at least 200,000 people are sheltering 
under the U.N.'s protection inside. Forty percent of the 
population faces severe hunger, including pockets of famine.
    Sadly, there has been no methodical effort to calculate the 
number of civilian deaths caused by South Sudan's war, even 
though there are indications that hundreds of thousands of 
civilians may have already died.
    U.S. policy must be calibrated commensurate to the 
magnitude of this challenge. A fundamentally different approach 
is needed, one that protects the South Sudan sovereignty and 
territorial integrity while empowering the citizens of South 
Sudan to take ownership of their future absent the predations 
of a morally bankrupt elite.
    Mr. Chairman, in light of the absence of any national 
unifying political leaders, the only remaining path toward 
these objectives is to establish an international transitional 
administration under a U.N. and African Union executive mandate 
for the country for a finite period of time.
    Though seemingly radical, international administration is 
not at all unprecedented and has been previously employed to 
guide countries out of conflict, including sovereign states. 
Cambodia, Kosovo, East Timor are some of the most prominent 
examples.
    Brokering such a transition will require committed 
diplomacy by the United States in close partnership with 
African governments, but it would not necessitate an investment 
costlier than the current approach, and, in fact, promises a 
better chance of success. Like a patient in critical condition, 
restoring South Sudan to viability can only be done by putting 
the country even more so on external life-support and gradually 
withdrawing that assistance over time, as Ambassador Lyman and 
I have written.
    Since 2005, the United States has, in fact, devoted more 
than $11 billion to help South Sudanese secure self-
determination, and there is currently no end in sight. While 
these contributions have saved millions of lives of South Sudan 
citizens, U.S. taxpayers deserve a better return on that 
investment than the catastrophe that we see today.
    The U.N. and AU transitional administration could only come 
about if Kiir and Machar are induced to renounce any role in 
South Sudanese politics, which they will do if presented with a 
sufficiently robust package of disincentives for remaining on 
the scene.
    These would include the credible threat of prosecution by 
the International Criminal Court or the hybrid court envisioned 
under the current peace agreement, but presently stalled; the 
imposition by the U.N. Security Council of time-triggered 
travel bans and asset freezes; the imposition of preemptive 
contract sanctions to cast a shadow on the validity of oil and 
other resource concessions by Kiir's regime; and a 
comprehensive U.N. arms embargo, which is long overdue.
    Spoilers could be marginalized through a combination of 
politics and force, first by leveraging important 
constituencies' antipathy against Kiir, Machar, and their 
cronies to gain their support for the transitional 
administration, and second by deploying a lean and agile peace 
intervention force composed of regional states that can combat 
hardline elements once they have been politically isolated.
    Mr. Chairman, some will inevitably attempt to 
mischaracterize U.N. and EU transitional administration as a 
violation of South Sudan sovereignty. But given the increasing 
threats that South Sudan's dissolution poses to the interests 
of its immediate neighbors, the question of whether foreign 
governments will intervene militarily is becoming irrelevant. 
The more urgent question is what form that intervention will 
take.
    South Sudan's current trajectory is increasingly 
intolerable for its neighbors. Uganda, Ethiopia, Sudan, Kenya, 
they are bearing the brunt of the more than 1 million refugees 
that have fled South Sudan, stimulating simmering ethnic 
rivalries in these states. Interregional tensions abound and 
are worsened and worsened by South Sudan's conflict.
    The United States, therefore, has two choices: Stand by 
while these states back armed opposition groups against Kiir's 
increasingly militant and intransigent regime, or undertake 
their own unilateral military intervention or otherwise carve 
out spheres of influence as South Sudan slips into a deeper 
morass. Or we can pursue a strategy that accommodates these 
states' legitimate interests while preserving South Sudan 
sovereignty and territorial integrity and providing South Sudan 
citizens with an opportunity to take ownership of their future.
    Mr. Chairman, a diplomatic initiative toward an U.N.-EU 
transitional administration can succeed. Such an administration 
is, in fact, the only hope that the people of South Sudan have 
left to put an end to their unrelenting nightmare.
    Thank you again for inviting me here today. I look forward 
to your questions.

    [Ms. Knopf's prepared statement follows:]

               Prepared Statement of Kate Almquist Knopf

    Chairman Corker, Ranking Member Cardin, and members of the 
committee, thank you for convening this hearing and for the opportunity 
to speak to you today. The views I express here are my own; they do not 
represent those of the Africa Center for Strategic Studies, the 
National Defense University, or the U.S. Department of Defense.
    In January 1994, a senior official in the United Nations Department 
of Peacekeeping Operations met with the staff of the U.S. mission to 
the U.N. in New York. According to a summary of that meeting, which was 
later cabled to Washington, the U.N. official warned of a ``potentially 
explosive atmosphere'' as a result of the political stalemate between 
the parties to a recently signed peace agreement, of the ongoing arming 
of the president's forces concurrent with the deployment of an 
opposition battalion to the capital, and of the deteriorating economic 
situation. Three months later, the downing of President Habyarimana's 
plane was the final match that sparked the Rwandan genocide.
    While there are of course significant differences between Rwanda in 
1994 and South Sudan in 2016, this report sounds eerily familiar in 
light of recent developments in Juba, and we should not underestimate 
the real possibility that the already horrific war in the world's 
newest state could escalate into genocide. Too many of the warning 
signs are there: extreme tribal polarization fueling a cycle of 
revenge, widespread and systematic attacks against civilians, hate 
speech, atrocities intended to dehumanize particular populations, and 
targeting of community and tribal leaders, among others.
    I first visited South Sudan in 1995 while working for the 
international nongovernmental organization World Vision, which provided 
humanitarian relief to the areas held by the Sudan People's Liberation 
Movement/Army (SPLM/A). Later, I served as the USAID mission director 
for Sudan and South Sudan and then the head of USAID's Africa bureau 
during some of the crucial years leading up to South Sudan's 
independence. For part of this time, I represented the U.S. government 
on the international Assessment and Evaluation Commission charged with 
overseeing implementation of the Comprehensive Peace Agreement.
    Based on my two decades of experience with South Sudan, I remain 
firmly convinced that the United States' support for the self-
determination of the people of South Sudan was, and still is, necessary 
to bring lasting peace to South Sudan.
    I am equally convinced, however, that Americans and South Sudanese 
alike must acknowledge that the state of South Sudan has failed its 
people and that it is past time to abandon several myths regarding the 
health of South Sudan's political culture, the capacity of its leaders, 
and the potential impact of technical interventions--from development 
assistance to peacekeeping--in a country that has for all intents and 
purposes had no meaningful historical experience with governance. Just 
as many of those same myths misled us during the interim period, they 
continue to underpin U.S. policy today and are increasing rather than 
decreasing the likelihood of ever greater atrocities, human suffering, 
and regional insecurity.
    Mr. Chairman, let me outline some of these myths and then suggest a 
more productive way forward for U.S. policy.
    The first myth is that power-sharing governments work in South 
Sudan. They do not. They have spectacularly failed twice now, and the 
escalating violence, the de facto collapse of the August 2015 peace 
agreement, and the fighting in Juba in July were as inevitable as they 
were predictable. The Transitional Government of National Unity--both 
before and even more so after the flight of Riek Machar from Juba in 
July--is neither nationally representative nor unifying. It was 
premised on divvying up the political and economic spoils of the state, 
and it will therefore never be the basis for a transition to a more 
secure, peaceful, and sovereign South Sudan. In addition, with the 
expulsion of Machar from that transitional government at the end of 
July, President Salva Kiir co-opted any meaningful opposition 
representation that remained in the government and ensured that 
whatever transformative reforms existed in the peace agreement would 
not advance.
    Beyond the specific flaws of the agreement or the senseless game of 
musical chairs over who holds which position in a national government 
that exists only in name, the more fundamental fact is that war and 
conflict do not persist in South Sudan because of an imbalance of 
political power that can be rectified by putting the right individuals 
on either end of a see-saw. War and conflict persist in South Sudan 
because there is a complete deficit of legitimate power and legitimate 
institutions.
    To a degree nearly unrivaled in Africa, South Sudan has no 
nationally unifying political figures with credibility or a 
constituency beyond their own tribe--or in most cases, beyond even a 
segment of a sub-clan of their tribe. There is no national identity in 
most of the country--something that South Sudanese leaders since 
independence have invested very little effort to redress. Instead, the 
regime in Juba consists only of a loose network of individuals with 
varying degrees of coercive force at their disposal but no political 
center of gravity. The country's one unifying political force--the 
Sudan People's Liberation Movement, which was the vanguard of South 
Sudan's struggle for independence--has imploded as a result of its 
leaders' competition over power and resources.
    South Sudan also suffers from an acute lack of institutions. As the 
African Union's Commission of Inquiry led by former president of 
Nigeria Olusegun Obasanjo concluded in 2014, ``the crisis in South 
Sudan is primarily attributable to the inability of relevant 
institutions to mediate and manage conflicts, which spilt out into the 
army, and subsequently the general population . [U]nlike many African 
states, South Sudan lacked any institutions when it attained 
independence.'' The Commission further found that previous state-
building initiatives in South Sudan, which had focused on capacity-
building, appear to ``have failed,'' a conclusion, it notes, that was 
not arrived at solely by foreigners but was in keeping with the results 
of a comprehensive review commissioned by Kiir's office before the 
outbreak of the war in December 2013.
    Under these conditions, ending the war in South Sudan will require 
not merely balancing or dispersing power but a viable framework to 
inject power, authority, and legitimacy into South Sudanese politics 
and South Sudanese institutions over the long term.
    The second myth is that Kiir and Machar are part of the solution to 
South Sudan's war. They are not. They are in fact key drivers of the 
conflict. Kiir and Machar have sat together in government twice and 
have disastrously failed their country on both occasions. The reports 
of the AU Commission of Inquiry and several U.N. bodies have provided 
ample evidence of their complicity in war crimes and crimes against 
humanity. They and their inner circles, including the chief of general 
staff, Paul Malong, are irredeemably compromised among broad segments 
of the population and are innately divisive rather than unifying. Peace 
and stability in South Sudan will only come if and when Kiir, Machar, 
and those closest to them are excluded from the political life and 
governance of the country.
    Let me underscore, however, that neither Kiir nor Machar can be 
excluded while the other remains. The United States' tacit support for 
Kiir's removal of Machar from the transitional government and effort to 
isolate Machar has unwittingly given Kiir a blank check to pursue an 
increasingly militant policy of Dinka domination. It has also signaled 
to all those who oppose Kiir-Nuer, Shilluk, and Equatorian alike--that 
there is no political pathway to end the war and that violent overthrow 
of Kiir's regime, which they already view as responsible for ethnic 
cleansing, is their only means of self-preservation. This policy has 
accelerated rather than defused the centrifugal forces that are tearing 
at the social fabric of the country. Kiir displays no concern for the 
repeated threats of sanction that are never realized; he and his 
government are clearly pursuing an ethno-nationalist agenda. It is not 
subtle, and they have not been deterred.
    I have known Salva Kiir for many years, and I worked closely with 
him during the interim period of the implementation of the 
Comprehensive Peace Agreement. Initially, he helped steer his 
traumatized country through its turbulent early years of autonomous 
rule, including the critical moments after the death of Dr. John Garang 
that threatened to plunge South Sudan into civil war. But nearly three 
years of war have shown that he was never able to make the transition 
from soldier to statesman.
    No man who arms youth militia to perpetrate a scorched earth 
campaign against civilians or who sends amphibious vehicles into swamps 
to hunt down women and children who have fled from violence or who 
orders attack helicopters to shell villages or U.N. protection of 
civilian sites can play any part in leading South Sudan to the future 
its people deserve. The international community recognized the 
sovereignty of South Sudan on its Independence Day on July 9, 2011. 
This sovereignty is vested in the people of South Sudan, however, not 
in Salva Kiir, not in his hand-picked ministers and advisers, and not 
in his tribe.
    There is also no evidence to suggest that the replacement of Riek 
Machar with Taban Deng Gai will result in the Kiir regime voluntarily 
changing course to act in the interests of its people rather than 
against them. To the contrary and despite repeated promises and 
commitments to do otherwise, Kiir is not only pursuing full-scale armed 
conflict against civilian populations deemed to be supportive of the 
opposition, his government continues to increase obstruction of life-
saving humanitarian aid and peacekeeping operations and to close 
political space by intimidating and harassing local and international 
journalists, civil society representatives, aid workers, and foreign 
diplomats alike. Unthinkable, brutal assaults, rapes, and even 
assassinations are commonplace. Indeed, Kiir's regime demonstrates 
regularly that it has learned the worst lessons from Khartoum--to buy 
time, to obfuscate and deny the gravity of the humanitarian and human 
rights crisis, to take three steps back and then a half step forward, 
confusing the international community and deferring any consequences.
    The third myth is that a peacekeeping operation deployed without a 
workable political arrangement can succeed in bringing peace. It 
cannot. Since the war in South Sudan began in 2013, the number of U.N. 
peacekeepers has nearly doubled, the mandate of the force has been 
strengthened to include the most robust authorities necessary to 
protect civilians, and yet the scope and scale of the war has expanded 
unabatedly. Even if the government agrees to the deployment of the 
4,000 troops envisioned under the regional protection force, which it 
has signaled time and again it will not do, another increase in force 
levels or mandate adjustments is not likely to be any more successful 
when the political arrangements that the force is designed to support 
have collapsed.
    Moreover, deploying the regional protection force in the current 
zero-sum political context presents a dangerous dilemma. The force will 
inevitably be called upon either to side with the government against 
the opposition or with the opposition against the government, thereby 
aligning the U.N. with one tribe against another in a tribal war. For 
example, if the government perpetrates further attacks against the U.N. 
protection of civilian sites, which it has characterized as strongholds 
of Nuer rebels, should the protection force engage the government 
militarily in its capital? This is a government that has already 
characterized the protection force as a violation of its sovereignty 
and as ``invaders,'' that flagrantly violates the existing U.N. status 
of forces agreement on a daily basis, and that maintains at least 
25,000 uniformed SPLA in Juba, in addition to plain clothes national 
security personnel. Conversely, if opposition forces attack Juba, as 
Equatorian militia have done at the city's outskirts in just the last 
two weeks, should the protection force fight them in concert with the 
Dinka-dominated government?
    The fourth myth is that piecemeal, technical investments--financial 
bailouts, security sector reforms, disarmament and demobilization 
programs, or development initiatives--are sufficient for confronting 
South Sudan's systemic failure as a nation state. An economic package 
without an accountable and functional government or a peacekeeping 
mission when there is no peace to keep, or security sector reform when 
the military is run by war criminals is unlikely to yield dividends for 
the people of South Sudan.
    Mr. Chairman, the fact that South Sudan's collapse ranks among one 
of the most severe humanitarian and security challenges in the world 
today is perhaps hard to comprehend at a time when multiple crises 
compete for international attention. Yet the scale and scope of this 
war is nearly unparalleled.
    Last week, South Sudan became one of only four countries with more 
than one million refugees, alongside Syria, Afghanistan, and Somalia. 
This is in addition to the 1.7 million people who are internally 
displaced, including at least 200,000 sheltering under the U.N.'s 
protection. Forty percent of the population faces severe hunger; 
250,000 children are severely malnourished; and there is famine in 
parts of Northern Bahr el Ghazal state and likely elsewhere. A study 
undertaken by the South Sudan Law Society last year based on the 
Harvard trauma questionnaire concluded that the incident rate of post-
traumatic stress disorder in South Sudan equaled that of post-genocide 
Rwanda and Cambodia.
    Sadly, there has been no methodical effort to calculate the number 
of civilian deaths caused by South Sudan's war, even though there are 
indications that a comparable number of civilians may have been killed 
in South Sudan in nearly three years of war as in Syria, a country with 
twice the population enduring a war that has ground on for twice as 
long.
    In Syria, three-quarters of the estimated half million deaths are 
combatants, whereas the war in South Sudan disproportionately affects 
civilians. The only estimate of deaths in South Sudan thus far placed 
the total at 50,000 in November 2014, less than a year after the war 
began.\1\ Without a more accurate estimate of the rising death toll in 
South Sudan, regional and international responses fail to appreciate 
the full severity of the crisis and underestimate the urgency of the 
response needed.
    South Sudan is not on the brink of state failure. South Sudan is 
not in the process of failing. South Sudan has failed, at great cost to 
its people and with increasingly grave implications for regional 
security, including the stability of important U.S. partners in the 
Horn of Africa. South Sudan has ceased to perform even the minimal 
functions and responsibilities of a sovereign state. The government 
exercises no monopoly over coercive power, and its ability to deliver 
public services, provide basic security, and administer justice is 
virtually nonexistent. While the Kiir regime may claim legal 
sovereignty, in practice domestic sovereignty is entirely contested and 
discredited.\2\
    U.S. policy must be calibrated commensurate to the magnitude of 
this challenge, which will require a different approach that accounts 
for South Sudan's unique political realities. Such a strategy must have 
two objectives: First, protect South Sudan's sovereignty and 
territorial integrity and, second, empower the citizens of South Sudan 
to take ownership of their future absent the predations of a bankrupt 
elite.
    Mr. Chairman, given the extreme degree of South Sudan's state 
failure, the only remaining path toward these objectives is to 
establish an international transitional administration under a U.N. and 
African Union executive mandate for the country for a finite period of 
time.
    Though seemingly radical, international administration is not 
unprecedented and has been previously employed to guide other 
countries, including sovereign states, out of conflict. Cambodia, 
Kosovo, and East Timor are some of the most prominent examples. While 
it will realistically take at least ten to fifteen years for South 
Sudanese to develop a new vision for their state as well as the 
institutions to manage politics nonviolently, it is more sensible to 
plan for this duration at the outset than drift into an accumulation of 
one-year peacekeeping mandates over decades, as has been done in the 
eastern Democratic Republic of the Congo, Darfur, and elsewhere.
    Brokering such a transition will require committed diplomacy by the 
United States in close partnership with African governments. But it 
would not necessitate an investment costlier than the current 
approach--in assistance dollars or in political capital--and in fact 
promises a better chance of success. Like a patient in critical 
condition, restoring South Sudan to viability can only be done by 
putting the country on external ``life support'' and gradually 
withdrawing assistance over time.
    A calculation of all State Department and USAID assistance to South 
Sudan from fiscal year 2005 to 2016 shows that the United States alone 
has devoted more than $11 billion in humanitarian, peacekeeping/
security sector, and transition and reconstruction assistance to help 
the South Sudanese secure self-determination. And Secretary Kerry's 
announcement last month of an additional $140 million dollars in 
humanitarian aid shows that this trajectory is set to continue. While 
U.S. contributions have unquestionably saved millions of lives, South 
Sudan's citizens--and U.S. taxpayers--deserve a better return on that 
investment than the humanitarian and security catastrophe we see today.
    A U.N. and AU transitional administration could restore order and 
public security, provide basic governance, administer essential public 
services, and rebuild the economy. Vitally, it would also provide the 
time and space to establish the political and constitutional framework 
for the return to full sovereignty. Elections--which under the current 
polarized circumstances can only be expected to drive further 
conflict--would be delayed until after reconciliation, accountability, 
and national dialogue processes culminate in a new permanent 
constitution, thereby removing the prospect of a winner-takes-all 
electoral process overshadowing crucial political, security, and 
institutional reforms.
    The depth of the country's economic collapse--the state is entirely 
bankrupt and inflation hit 661% percent last month--will require a 
substantial donor assistance effort. However, macro-economic 
stabilization is unrealistic with the current regime in power. The same 
elite that has compromised South Sudan's sovereignty is responsible for 
squandering tens of billions of dollars in oil revenue since 2005, and 
there is no evidence to suggest they would improve their financial 
management practices in the future.
    Under a U.N. and AU transitional administration, however, the World 
Bank could manage South Sudan's oil revenues in a transparent and 
accountable manner to partially fund service delivery to the South 
Sudanese. Major donors and international financial institutions such as 
the IMF would be reassured by the accountability and transparency 
mechanisms governing the delivery of non-humanitarian assistance under 
the transitional administration. This would in turn bolster confidence 
that donor resources are supporting national strategies to meet the 
needs of South Sudan's citizens and unblock generous aid packages that 
provide additional incentives to South Sudanese constituencies to 
support the transition. Any services the people of South Sudan receive 
today are already being provided by the international community. A U.N. 
and AU transitional administration would remove the political and 
security impediments to these operations.
    Even more critically, a transitional administration would provide 
space for the kind of genuine national dialogue process prescribed by 
the AU Commission of Inquiry, ``to provide a forum for dialogue, 
inquiry, and to record the multiple, often competing narratives about 
South Sudan's history and conflicts; to construct a common narrative 
around which a new South Sudan can orient its future; to uncover and 
document the history of victimization and to recommend appropriate 
responses,'' including through a truth and reconciliation commission. 
It would also allow for an internal discussion on the structure of the 
state.
    Opposition to a U.N. and AU transitional administration could be 
mitigated through a combination of politics and force by (1) 
negotiating Kiir and Machar's renunciation of a role in South Sudanese 
politics; (2) leveraging important constituencies' frustration with 
Kiir, Machar, and their cronies to gain these constituencies support 
for the transitional administration; and (3) deploying a lean and agile 
peace intervention force--composed of regional states--to combat and 
deter the remaining spoilers once they have been politically isolated.
    Kiir and Machar can be peacefully excluded from South Sudan's 
political and economic life if they see the walls closing in on them 
and are offered a pathway that ensures their physical safety outside 
the country. This will require a sufficiently robust package of 
disincentives for their opposition to the transitional administration. 
Such a package could include the credible threat of prosecution by the 
ICC or the Hybrid Court envisioned (but stalled) under the current 
peace agreement, the imposition by the U.N. Security Council of time-
triggered travel bans and asset freezes, pre-emptive contract sanctions 
to cast a shadow on the validity of oil and other resource concessions 
by Kiir's regime, and a comprehensive U.N. arms embargo, which is long 
overdue.
    The exclusion of Kiir and Machar from the transition would defuse 
much of the impetus to continue the war or to oppose a transitional 
U.N. and AU administration among the Nuer, Dinka, and other forces 
fighting for revenge, retribution, or in self-defense. U.N. and AU 
administration would also provide assurances to all sides that they 
would not be excluded and therefore could participate in the national 
political process.
    Some powerful individuals, including Kiir and Machar's core 
partisans and family members, would still of course have an incentive 
to obstruct the transitional administration in pursuit of personal or 
narrowly tribal ambitions. As the most instrumental and consistent 
supporter of South Sudan's independence, the United States could assist 
with marginalizing these potential spoilers in three important ways.
    First, by harnessing the significant concern among senior SPLA 
officials and other national security actors that the continuation of 
the war will inevitably lead to direct military intervention by 
neighboring states; the carving up of the country as happened in 
eastern DRC; and consequently an open-ended loss of sovereignty to 
persuade them that the U.N. and AU administration is the least bad 
option. Additionally, many of these actors would welcome the 
opportunity to build a professional, inclusive national army and police 
force afforded by a U.N. and AU administration. Second, by mobilizing 
individuals and tribal constituencies that have been alienated by 
Kiir's policy to promote Dinka territorial dominance in contested areas 
through his 28 states decree. Third, by deploying a peace intervention 
mission with credible coercive force.
    Mr. Chairman, attempts to mischaracterize the U.N. and AU 
transitional administration as a violation of South Sudan's sovereignty 
or an attempt at neocolonialism are inevitable, particularly from the 
most hardline Dinka elements in the country who benefit--financially 
and politically--from the current situation. These elements have 
already mounted a concerted effort to block the Regional Protection 
Force as an alleged violation of sovereignty, which has raised the 
stakes for international involvement in South Sudan without raising the 
likelihood of significant political or security gains for its people. 
Given the increasing threats that South Sudan's dissolution poses to 
the interests of its immediate neighbors, however, the question of 
whether foreign governments will intervene militarily is becoming 
irrelevant. The more urgent question is what form that intervention 
will take.
    Uganda, Ethiopia, Sudan, and Kenya are bearing the brunt of the 
more than one million refugees that have fled South Sudan. Over 370,000 
South Sudanese have sought refuge in Uganda, 100,000 since July 8th 
alone, and Ethiopia now hosts another 290,000. The refugees' presence 
has stimulated simmering ethnic rivalries in these states. For 
instance, communal fighting broke out on Ethiopia's side of the border 
with South Sudan in early 2016, and Ethiopian troops deployed into 
South Sudan's Jonglei state in April 2016 following a particularly 
brazen incursion into Ethiopia's Gambella state by a South Sudanese 
tribal militia. Intraregional tensions--such as the long-standing 
rivalry between Sudan and Uganda and the competition for regional 
hegemony between Uganda and Ethiopia--abound, and both worsen and are 
worsened by South Sudan's conflict.
    The United States therefore has two choices: We can stand by while 
these states make facts on the ground by backing armed opposition 
groups against Kiir's increasingly militant and intransigent regime, 
taking unilateral military intervention against civilian populations it 
wishes to subjugate, or otherwise carving out spheres of influence as 
South Sudan slips away into a deeper morass. A policy that helps Kiir 
to consolidate his position will not address the security concerns of 
South Sudan's neighbors over the long term, thereby making this 
trajectory more likely.
    Or, in partnership with neighboring governments, the United States 
could pursue a strategy that accommodates their legitimate interests 
while at the same time preserving South Sudan's sovereignty and 
territorial integrity and providing South Sudan's citizens with an 
opportunity to take ownership of their future.
    For Uganda, the credible security architecture of a U.N. and AU 
administration would provide a buffer against the extension of Sudanese 
influence, the prevention of which is a core Ugandan strategic 
interest, as well as prevent a security vacuum that could be exploited 
by the Lord's Resistance Army or extremist groups. The return to a more 
stable security environment--particularly in the Greater Equatoria 
region, which is more turbulent than at any time during the civil war 
with Khartoum and lies along Uganda's border--would also revive 
opportunities for Ugandan commercial activity.
    By reducing insecurity and mitigating conflict drivers, an 
effective U.N. and AU transitional administration would stem the flow 
of South Sudanese refugees into Ethiopia and would ultimately 
facilitate their return home. This would ease the strain on the limited 
resources of an Ethiopia struggling to cope with a severe drought and 
lessen ethnic conflicts in eastern Ethiopia caused by the refugees' 
presence at a time of increasing ethnic unrest in other parts of the 
country.
    An international transitional administration would provide Sudan 
with increased and more regular oil production at a time when its 
economy is struggling and provide a new impetus for breaking the 
stalemate between Sudan and Sudanese armed opposition groups that have 
received support from Juba. A U.N. and AU administration would also 
serve Kenyan interests by stabilizing the long-standing commercial ties 
between South Sudan and Kenya, where much South Sudanese wealth is 
held, and by mitigating the possible exploitation by extremist groups 
of a security vacuum in South Sudan.
    Mr. Chairman, a diplomatic initiative toward a U.N. and AU 
transitional administration can succeed. Such a transitional 
administration is in fact the only hope that the people of South Sudan 
have left to put an end to their unrelenting nightmare. The alternative 
is to flounder from one tactical step to another--conferring legitimacy 
on individuals who have long since lost it among their own citizens--
while the state for which the South Sudanese people fought so bravely 
dies five years after its birth.
    Thank you again for inviting me here today. I look forward to your 
questions.


----------
Notes:
 1. In the one part of South Sudan where a statistically rigorous study 
        has been conducted as a proof of concept, the conservative 
        estimate enumerated 7,165 civilians deaths by violence in just 
        five counties in one state during a 12-month period between 
        2014 and 2015--twice the number of civilians killed in all of 
        Yemen in the first 12 months of that country's civil war.

 2. The legal basis for Kiir's role as president of South Sudan is 
        highly questionable. He was elected as president in 2010, prior 
        to South Sudan's independence, and the elections scheduled for 
        2015 was postponed as a result of the war, which itself was 
        sparked over an internal party dispute centered on the 
        electoral contest. Kiir's term was extended to 2017 by a 
        national assembly from which the opposition was excluded.


    The Chairman. Thank you very much.
    Dr. Kuol?

STATEMENT OF LUKA BIONG DENG KUOL, PH.D., GLOBAL FELLOW, PEACE 
             RESEARCH INSTITUTE OSLO, OSLO, NORWAY

    Dr. Kuol. Yes, Mr. Chairman, thank you very much. I am so 
delighted to have the opportunity again to make a statement 
before your committee.
    I hope I can make sense of the complex situation and to 
paint what the future holds for South Sudan.
    I want to reiterate that the peace agreement that was 
signed, although it is in bad health, remains the only viable 
option of putting South Sudan on the track of peace. Any other 
option, in my view, is a recipe for more human suffering and 
loss of innocent lives.
    It is an agreement that has been unanimously approved by 
the parliament. It is facilitated by the IGAD, as well as by 
the African Union, TROIKA, including the U.S. Government, and 
the international community. It is an agreement that enjoys the 
unanimous support of the member states of the Security Council.
    Indeed, as you rightly put it, the eruption of conflict in 
July 2016 showed that this agreement lacks political will, 
particularly from a small group of elements, anti-peace-
agreement, that are actually championing the opposition to the 
peace and driving an agenda of violence, and to benefit 
themselves from this violence.
    In the case of the Government of South Sudan, these 
elements use not only political rhetoric and sentiment against 
the friends of South Sudan, but they have been exploiting 
public initiatives during the war to benefit themselves. I hope 
that the U.N. panel of experts on Sudan will take out the link 
between these elements and how they benefit from this war.
    These anti-peace elements also actually are not respecting 
the President of the Republic, their own President, producing 
contrary statements about the President's reconciliatory 
positions.
    Then the question is how can we reengineer the political 
will. A few suggestions.
    The U.S. should aim at assembling the supporters of peace, 
winning over the undecided in the government, and isolating the 
anti elements both in the government and in opposition.
    The SPLM-IO opposition is divided after the appointment of 
Taban Deng as the new First Vice President. Although we are 
seeing some positive signs that they are working together and 
developing a new spirit for the full implementation of this 
agreement, yet the U.S. Government through the Joint Monitoring 
and Evaluation Commission should abide by this provision of the 
agreement and work toward maintaining stability and unity among 
the warring parties. It is in the interest of the people of 
South Sudan and the peace that the parties to the agreement 
must be united.
    Also, the United Nations Mission in South Sudan, UNMIS, 
plays a very important role. Despite its shortcomings, South 
Sudan is better off with the presence of the United Nations 
Mission in South Sudan. However, it needs to consolidate its 
mandate and to work effectively with the transitional 
government to fully implement this peace agreement.
    The deployment of regional forces is one of the ways of 
strengthening this mandate of the United Nations mission. And 
with the consent of the Government of South Sudan, we should 
expedite the deployment of these forces.
    After the cooperation that was shown by the government and 
the President himself to the Security Council, I think the U.S. 
Government should start now building a new relationship with 
the government in order to commit themselves for implementing 
the peace agreement.
    Yes, it is true that peace is in bad health. What if it 
fails? The violent conflict will continue more human suffering. 
Currently, the SPLM opposition seems to be planning for the 
option of war if peace is declared dead. But even Dr. Lam Akol, 
who was championing the nonviolent opposition, is left with 
nothing but to opt out from this nonviolent opposition.
    So what can the international community do?
    First, we should not expect the international community to 
be watching, but they should act in order to prevent the 
eruption of new violence in South Sudan. The recent IGAD 
initiative of deployment of these U.N. forces, of regional 
forces, and the consent of the Government of South Sudan, is a 
very important step to rescue this peace agreement from 
collapsing.
    And with these efforts, with the U.S. Government, I think--
maybe I disagree with Kate, not in terms of direction, but in 
terms of whether this proposal is currently an option, given 
the international community is focusing on the implementation 
of the peace agreement. But it should be an option that we 
should be keeping in our minds, if worse comes to worse.
    On the other hand, the prospect that the international 
community might at a certain point have to intervene should 
encourage the parties to the agreement to implement it, because 
that threat is very important.
    But equally important, I think, even with political will, 
we need robust technical and financial support to sustain the 
commitment and make this peace attractive and have the 
dividends of peace. But we need people to work together.
    And in this regard, the recent legislation to facilitate 
the return of qualified South Sudanese diaspora is a positive 
and good step, and should be encouraged.
    Now on the political reforms, who to supervise it, I know 
there is a lot of debate. We have the options of either the two 
leaders to supervise the political reforms. This is provided 
for in the peace agreement; or either of them to step down; or 
the third, two of them.
    But, Mr. Chairman, I know you cannot do this one without 
the consent of these people because the peace agreement and 
these two leaders, they should be included, to be held 
responsible to implement this peace agreement because these are 
the options available ahead of us. Failing to do that, then we 
can talk about other options.
    Or if possible, the international community, through its 
diplomatic leverage, to convince either of them or two of them 
to give way for new leaders to come, but with the consent of 
the political parties.
    I think there is that opportunity with the region. Like 
what Kate said, we can use the region in order to do the same.
    Let me conclude by saying that people of South Sudan are 
great people, and I think from the civil war, they may rise up 
from ashes of civil war to pursue the God-given potential to 
build the country. Thank you.

    [Dr. Kuol's prepared statement follows:]

           Prepared Statement of Luka Biong Deng Kuol, Ph.D.

                              introduction
    I am extremely honoured again for this timely opportunity today to 
make this statement before your committee. Last April, I had 
opportunity to make testimony on the South Sudan's Prospects for Peace 
before the U.S. House of Representatives Committee on Foreign Affairs, 
Subcommittee on Africa, Global Health and Human Rights. Since that time 
things have changed considerably. I was optimistic that things will 
improve and that South Sudan will be on the right track in implementing 
peace agreement. Unfortunately I was wrong as violent conflict erupted 
again in July 2016, many innocent lives were lost, thousands fled the 
country and took refugee in the neighbouring countries, the economy at 
the verge of collapse, and peace agreement is not at all in good 
health. I hope I will be right this time to make sense of this complex 
situation and to paint what future holds for South Sudan.
    I will address the four issues in the order I have been asked by 
the committee: first, on the viability of the Peace Agreement; second, 
on international and regional administration of South Sudan; third, on 
accountability and reconciliation; and fourth, on sustainable political 
reforms.
  viability of peace agreement and the role of international community
    I want first to reiterate affront that the peace agreement, 
although it is in bad health, remains the only viable option of putting 
South Sudan on track of peace and stability. Any other option will be a 
recipe for more loss of innocent lives and human suffering. It is an 
agreement wanted by the people of South Sudan as it has been 
unanimously approved by the national parliament of South Sudan without 
reservations. It is a peace agreement that came as a result of 
concerted efforts of the region (IGAD), African Union, TROIKA and 
International community represented United Nations Security Council. It 
is a peace agreement supported and endorsed unanimously by the 
permanent members of the United Nations Security Council.
    However, the eruption of violent conflict in July 2016 shows that 
the peace agreement was backed by an incomplete political will. The 
real challenge now is how to nurture the real political will to support 
peace agreement as the best and the only hope for the people of Sudan. 
There are elements both in government and opposition that are against 
peace and they are the ones igniting violence and influencing public 
opinion against the friends of South Sudan such as the region, AU, U.N. 
and Troika countries.
    The voices of these elements became very clear in government as 
they started even undermining the reconciliatory positions of President 
of South Sudan towards friends of South Sudan as clearly stated in his 
recent speech in the parliament and his meeting in Juba with members of 
the U.N. Security Council. These elements are driven more by wartime 
vendettas and narrow self-interest. They have actively encouraged 
conflict ever since. When the big tent collapsed along the old dividing 
lines it became obvious that the Government of South Sudan includes 
some officials who are working hard to implement the Agreement; some 
who are undecided; and others who are against the peace because it 
doesn't serve their agenda. In terms of achieving the much-needed 
environment of political will, the challenge is to strengthen the 
supporters of peace, win over the undecided and isolate the anti-peace 
elements.
    The recent atrocities being committed in Juba by unknown armed men, 
including against foreigners, their actions were seen as a deviation 
from the SPLA's history and its code of conduct. Why has military 
discipline changed for the worst since the independence? Mean speech by 
unscrupulous politicians that casts the international community as an 
enemy of South Sudan is misleading the soldiers and stirring up anger 
in the social media. These anti-peace elements in the government are 
the ones need to be targeted with specific sanctions that may limit 
their influence.
    It is a fact that the SPLM-IO is divided and Gen. Taban Deng has 
been appointed as a new First Vice President to act in the position of 
Dr Riek until he returns back to Juba. There are early signs that 
suggest that President Salva and his new First Vice President are 
working in harmony and with new spirit towards the full implementation 
of peace agreement. Despite such progress, the international community 
should abide by the terms, provisions and institutions provided for 
resolving differences in the peace agreement. It is within the interest 
of peace to see the parties to the peace agreement united rather than 
divided and they should be helped to remain united. The Joint 
Monitoring and Evaluation Commission (JMEC) is the only institution 
mandated to resolve differences in the peace agreement and members of 
JMEC including U.S. are expected to support the smooth function of 
JMEC. The current difference in SPLM-IO can only be resolved through 
JMEC or SPLM-IO itself rather than through individual members of JEMC.
    Also smooth implementation of peace agreement rests with the role 
to be played by United Nations Mission in South Sudan (UNMISS). There 
are concerns about the role of UNMISS in discharging its mandate under 
Chapter VII of protection of civilians as many including U.N. reports 
have clearly shown its underperformance since the eruption of violent 
conflict in December 2013 and recently in July 2016. Besides its 
inability to protect civilians, UNMISS even failed to protect U.N.'s 
properties as the warehouses of World Food Programme (WFP) full with 
food items were looted in daylight in Juba.
    Despite this underperformance of UNMISS, the counterfactual 
question remains what would have been the situation in South Sudan with 
these violent conflicts without the presence of UNMISS? What would have 
been the fate of thousands of people who took refuge in PoC? Is the 
performance of UNMISS different from other missions with similar 
mandate in other countries? What would be the level of knowledge and 
awareness of international community about gross human rights abuses 
and atrocities committed by the warring parties? With these questions 
and despite its shortcomings, South Sudan is better with the presence 
of UNMISS. However, there is a need to strengthen its mandate and to 
perform differently for building peace.
    The deployment of the Regional Protection Forces is one of the ways 
of strengthening the mandate of UNMISS. The way these Regional 
Protection Forces was initially presented as ``intervention forces'' 
created anxiety and serious and right concerns about the sovereignty of 
their state. As well articulated recently by the U.S. Secretary of 
State that the Regional Protection Forces are only to complement the 
sovereign authority of South Sudan rather than taking it away. This is 
the message that is needed to be passed to the authorities in Juba and 
people of South Sudan by the international community and to silence the 
voices of anti-peace in the government. Also the cooperation of the 
Government and people of South Sudan should be secured based on the 
fact that these Regional Protection Forces are not an effort to 
undermine sovereignty, but rather to consolidate security, in order to 
facilitate development for the country. It is in that sense a 
reinforcement of sovereignty, but must be undertaken with local 
understanding and support. The commitment that was given by the 
President in Juba to the members of U.N. Security Council may not be 
respected if these anti-peace elements remain in their influential 
public positions.
              international administration of south sudan
    During my congressional testimony last April, I posed a fundamental 
question of what if the parties failed to implement the peace 
agreement? The clear and straight answer is that parties will scale up 
violent conflict. Currently, SPLM-IO seems to be planning for the 
option of war if peace agreement is dead. Even some of the political 
leaders such as Dr Lam Akol who championed the non-violent opposition 
seems to be left with no option but to abandon the peaceful means given 
the unhealthy status of peace agreement to which he anchored his non-
violent opposition. Also other national voices for peace will be pushed 
to the extreme of violence as the only way of bringing change in South 
Sudan.
    While it is natural that the international community cannot be 
watching such unfolding human suffering caused by the acts of elites 
who are not interested and have no political will to implement peace 
agreement, it is important that any action in lieu of peace needs to be 
carefully assessed within the context of South Sudan, regional 
dimensions and international context. The international administration 
of South Sudan relies on few assumptions that the region and 
international community will be united and have a consensus over such 
option and that people of South Sudan, if not all of them, will accept 
it as the best option for putting their country on the path of peace 
and stability.
    It is a fact that the region is divided with each country guided by 
its narrow and incompatible strategic interests and even some of them 
such as Sudan may be ready to support the opposition parties in waging 
war against Juba. So IGAD and even more difficult the AU may not reach 
a consensus on the international and regional administration of South 
Sudan. One is not sure how the international community, particularly 
UNSC, will reach consensus on the international and regional 
administration of South Sudan; given the fact that the members of UNSC 
are unable to reach a consensus even on arms embargo. The people of 
South Sudan and particularly the anti-peace elements in the government 
may see such international administration as targeting certain ethnic 
groups and may use such option as a way of mobilizing themselves 
against such administration and that may result in violent 
confrontation and more human suffering.
    On the basis of these facts, the option of international 
administration should be seen as the cost of non-implementation of 
peace agreement and as effective way of encouraging the parties to the 
full implementation of peace agreement and to encourage them to have 
the necessary political will to implement the peace agreement. Besides 
this threat of international administration of South Sudan, the parties 
to peace agreement should be encouraged diplomatically to isolate the 
anti-peace elements or to impose targeted sanctions on these elements.
                   accountability and reconciliation
    The peace agreement is very clear on these two issues as different 
mechanisms have been provided for how they should be implemented. Also 
the African Union Commission of Inquiry on South Sudan has come up with 
specific suggestions of how to achieve justice, accountability and 
reconciliation. The role of international community is to see the full 
implementations of the provisions related to accountability and 
reconciliation. There is no doubt that both accountability and 
reconciliation require a stable political environment and that can 
begin from the bottom up building on local institutions to popularize 
the Agreement, mobilize the people and launch the constitutional 
process framed in the Agreement. Accountability and reconciliation can 
extend upward at a time when there is no risk to the Agreement.
                   the sustainable political reforms
    As I mentioned in my testimony last April that the peace agreement 
has provided unprecedented and detailed reforms that are better than 
those provided in the Comprehensive Peace Agreement (CPA). If these 
reforms are fully implemented, South Sudan will not be the same again.
    However, there are challenges of who to oversee the implementation 
of these reforms. Although peace agreement is very clear that the 
principals of the peace agreement (President Salva Kiir and Dr Riak 
Machar) are to oversee these reforms, there are voices calling 
otherwise. In fact there are three options: first is the peace 
agreement option of President Salva Kiir and Dr Riek Machar as 
principals to the Agreement; the second is for one to step down; and 
the third is that both step aside to give others a chance to oversee 
these reforms. Despite the fact that President Salva and Dr Riak Machar 
are unlikely to work together after the recent violent conflict in July 
2016, there is no option that can be imposed on them. Given the fact 
that peace agreement is a win-win situation, the two principals should 
be encouraged to work together as did Dr John Garang and President 
Bashir and later on President Salva and President Bashir to implement 
the CPA. If international community can use its diplomatic leverage to 
convince either of the principals or both principals to give way 
voluntarily with necessary exit packages and guarantees that may 
provide a new leadership to champion the political reforms in South 
Sudan.
    Besides, the option of who to supervise these reforms, The United 
States Government is an honorable friend of South Sudan and your help 
is needed now more than ever. The challenge is to continue the 
political, economic and security reforms that began in earnest with the 
CPA, but were diverted upon independence by a convergence of factors. 
The U.S. can mobilize the region and the international community to 
support this continuing process of reform and to make peace agreement 
attractive by providing peace dividends. USAID's work across all 
sectors and areas of South Sudan, including in agriculture, needs to be 
deepened, and that is why Secretary Kerry's pledge of an additional 
funding for those purposes is most important. Financial and technical 
assistance can be conditioned on these reforms, and sanctions should 
only be targeted at those who are against the peace.
                              conclusions
    In conclusion, I reiterate that the best option for the government 
and people of the United States of America is to support the full 
implementation of peace agreement and to make the cost of non-
implementation very high by targeting anti-peace elements with specific 
sanctions that will limit their influence in public affairs. Also, the 
U.S. can still help diplomatically, financially and technically, to:


   implement the Agreement, with necessary political reforms,

   support core functions of the Transitional Government of Unity, 
        with targeted assistance in areas of finance and management,

   plan for long-term development and better donor coordination, 
        particularly in areas of infrastructure and agriculture,

   and, most importantly, implement security sector and economic 
        reforms.


    Thank you for allowing me to share with you my optimism and 
concerns about the prospects of peace and security in South Sudan. I 
strong believe that the people of South Sudan will one day rise up to 
their expectations and God-given potentials and to put their country on 
the path of peace and prosperity with the usual support of their 
friends; the people of the United States of American and their 
government.


    The Chairman. Thank you, sir.
    Mr. Yeo?

 STATEMENT OF PETER YEO, PRESIDENT, BETTER WORLD CAMPAIGN, AND 
  VICE PRESIDENT, PUBLIC POLICY AND ADVOCACY, UNITED NATIONS 
                  FOUNDATION, WASHINGTON, D.C.

    Mr. Yeo. Thank you, Chairman Corker and Ranking Member 
Cardin and members of the committee. Thank you for the 
opportunity to testify before you today regarding South Sudan.
    I will focus today on the role that the U.N. Mission in 
South Sudan plays in protecting civilians at a level 
unprecedented in human history, and my belief that the U.N. 
mission should have taken more action to protect civilians 
during the fighting last July.
    Last November, I traveled to South Sudan with a 
congressional delegation to meet with U.N. peacekeepers, 
including visits to the largest U.N. civilian protection sites 
in Bentiu and Juba.
    The U.N. Mission in South Sudan, which began in 2011, 
remains the thin blue line protecting many South Sudanese 
civilians from government troops and a myriad of other heavily 
armed militias intent on harming them. As Congressmen Capuano 
and Higgins noted in their op-ed shortly after the delegation's 
return, there are almost 200,000 civilians in the six U.N. 
peacekeeping bases, and many of them would not be alive today 
if not for the U.N.'s presence.
    The U.N. did not anticipate protecting 200,000 civilians 
when the mission was created 5 years ago. But when conflict 
erupted in December 2013 and civilians rushed into U.N. sites 
to avoid attack by troops and militias, the U.N. moved to 
protect them at a scale unprecedented in U.N. history and 
informed by the tragedies in Rwanda and Srebrenica.
    When I visited in November, I met a young woman who had 
just arrived at the Bentiu camp gate looking for protection 
only the U.N. could provide. She had left her burned-out 
village with her two children, twin baby girls, after her 
husband was killed and she had survived a gang rape by 
government forces. Unfortunately, only one of her daughters 
lived through the arduous 80-mile journey.
    For the past 3 years, the U.N. mission has been severely 
limited in its ability to carry out its mandate. The South 
Sudanese Government has repeatedly violated its status of 
forces agreement, which guarantees free movement to U.N. 
peacekeepers.
    With the violent attacks on U.N. Protection of Civilians 
sites by government soldiers in Malakal in February, Bentiu in 
April, and Juba in July, the government has now moved from 
being a partner to a predator.
    At times, the U.N. Mission in South Sudan has failed to 
protect civilians, and it is imperative that it learns from its 
mistakes.
    In February, at the Malakal U.N. base where over 40,000 
South Sudanese still reside, at least 30 camp residents were 
killed before U.N. peacekeepers adequately responded. The 
recent attacks in July by government soldiers on international 
aid workers and South Sudanese civilians were also 
unconscionable. Those responsible for those horrendous crimes 
must be punished.
    U.N. peacekeepers should have done more to protect the 
civilians in Juba both at the Hotel Terrain and for the women 
leaving the camp in search of food. They did not.
    The U.N. is conducting an independent inquiry, headed by 
Major General Patrick Cammaert from the Netherlands as we 
speak, which will result in a report with recommendations.
    It is worth noting several factors which contributed to the 
U.N. mission's inability to protect in these circumstances.
    While the dirt road between U.N. House and Hotel Terrain is 
only a kilometer--I drove it in November--it was ground central 
for the fighting between government soldiers and opposition. 
Hundreds of soldiers lined the road along with government 
tanks, and government attack helicopters hovering above U.N. 
House firing into the nearby opposition base. U.N. peacekeepers 
were working to protect the 35,000 South Sudanese civilians 
inside the two Protection of Civilians sites located at U.N. 
House, which had been hit by more than 200 rounds during the 
fighting.
    Furthermore, the Chinese battalion's quick reaction force 
was responding to soldiers who were severely injured by 
government attacks the previous day, two of whom later died.
    Given the U.N.'s extremely limited medevac capabilities, 
the government's belligerence toward the mission, and the 
worsening security situation, some U.N. peacekeepers believe 
that they would have been left to bleed to death if they had to 
fight their way to the Hotel Terrain.
    As the U.N. conducts its inquiry, the U.N. mission, troop-
contributing countries, and the Security Council must consider 
some important questions to resolve key issues: Is the mission 
willing and able to engage in active combat against the 
government, the U.N.'s host in South Sudan, to protect 
civilians? What are the implications of large-scale active 
combat between the U.N. and the SPLA to the long-term future of 
the mission and its ability to protect civilians? Can the 
Security Council finally move toward an arms embargo?
    The possible deployment of 4,000 new U.N. peacekeepers 
could be a positive development in an otherwise bleak 
landscape. If the government continues to place severe 
restrictions on the mission, then the new troops may not have 
an impact on security in Juba.
    Mr. Chairman, Ranking Member Cardin, members of the 
committee, these are, indeed, dark days for innocent civilians 
in South Sudan. Those who have already been attacked and the 
hundreds of thousands still in need of protection. The U.N. 
mission, troop-contributing countries, and the Security Council 
must thoroughly review the mission, its mandates, military 
capacities, command-and-control structure, and rules of 
engagement to ensure that it can best protect civilians.
    All global players must continue to press the Government of 
South Sudan, in fact, all warring parties, to stop the killing 
of civilians and return to partnership with the United Nations. 
Thank you.

    [Mr. Yeo's prepared statement follows:]

                  Prepared Statement of Mr. Peter Yeo

    Chairman Corker, Ranking Member Cardin, thank you for the 
opportunity to testify before the committee today regarding South 
Sudan. I serve as President of the Better World Campaign and Vice 
President for Public Policy and Advocacy at the United Nations 
Foundation.
    My statement today will focus on the role that the U.N. Mission in 
South Sudan (or UNMISS) plays in protecting civilians--at a level 
unprecedented in U.N. history--and my belief that the U.N. Mission 
should have taken more action to protect civilians during the fighting 
last July.
    Last November, I traveled to South Sudan with a congressional 
delegation to meet with U.N. peacekeepers, including visits to the 
large U.N. civilian protection sites in Bentiu and Juba.
    The U.N. Mission in South Sudan, which began in 2011, operates 
throughout the country, tasked with a range of vital responsibilities. 
Mission personnel report on human rights violations and child 
recruitment into the military, educate civilians about gender-based 
violence and ending child marriage, and provide security for the 
delivery of vital humanitarian assistance. On the humanitarian front 
specifically, in a country where six million people need assistance, 
which is half the population, the U.N. and NGO partners have reached 
three million this year and aim to reach another two million by year's 
end.
    Most notably, UNMISS remains the thin blue line protecting many 
South Sudanese civilians from government troops and a myriad of other 
heavily armed militias intent on harming them. As Congressmen Michael 
Capuano (D-MA) and Brian Higgins (D-NY) noted in an op-ed published 
shortly after their trip to the country last year, ``There are almost 
200,000 civilians in the six U.N. peacekeeping bases and many of them 
would not be alive today if not for the U.N.'s presence.''
    The U.N. did not anticipate protecting 200,000 civilians when the 
mission was created five years ago. But when conflict erupted in 
December 2013, and civilians rushed into U.N. sites to avoid attack by 
troops and militias, the U.N. moved to protect them at a scale 
unprecedented in U.N. history and informed by the tragedies in Rwanda 
and Srebrenica.
    While in South Sudan, I met a young woman who had just arrived at 
the Bentiu camp gate looking for protection only the U.N. could 
provide. She had left her burned-out village with her two children--
twin baby girls--after her husband was killed and she had survived a 
gang rape by government forces. Unfortunately, only one of her 
daughters lived through the 80-mile journey.
    For the past three years, the U.N. Mission has been severely 
limited in its ability to carry out its mandate. The South Sudanese 
government, as I will detail later, has repeatedly violated the Status 
of Forces Agreement, which guarantees free movement to U.N. 
peacekeepers. With the violent attacks on U.N. Protection of Civilian 
sites by government soldiers in Malakal in February, Bentiu in April, 
and Juba in July, the government has now moved from partner to 
predator.
    At times, the U.N. Mission in South Sudan has failed to protect 
civilians, and it is imperative that it learns from its mistakes. In 
February, during an attack at the Malakal U.N. base, where over 40,000 
South Sudanese reside, at least 30 camp residents were killed before 
U.N. peacekeepers finally responded. An internal U.N. review of the 
incident found that peacekeeping forces failed to respond to the 
violence through a ``combination of inaction, abandonment of post, and 
refusal to engage.'' The U.N. Mission has accepted responsibility for 
its failure in Malakal after this investigation, and steps are being 
taken to resolve command and control issues, a major element in the 
mission's inability to protect.
    The recent attacks in July by government soldiers on international 
aid workers and South Sudanese civilians were also unconscionable. 
Those responsible for these horrendous crimes must be punished. U.N. 
peacekeepers should have done more to protect civilians in Juba--both 
at the Hotel Terrain and for the women leaving the U.N. bases in search 
of food. In light of these circumstances, the U.N. rightly announced 
that it would launch an independent investigation--headed by Major 
General Patrick Cammaert from the Netherlands--to assess the mission's 
actions and offer recommendations.
    Nevertheless, it is also important to contextualize the actions of 
the peacekeepers in terms of the challenges and obstacles they faced. 
First and foremost, it must be noted that there was heavy fighting in 
the immediate vicinity of the main U.N. base in Juba between July 8 th 
and July 11th, due to the presence of a large SPLA-IO cantonment site 
and an SPLA base in the area. SPLA armored personnel carriers, tanks, 
and several hundred troops were positioned on the road outside of the 
U.N.'s gates, making it difficult for peacekeeping troops to leave. 
Moreover, during the fighting the U.N. base and POC site were struck by 
more than 200 rounds of ammunition, including tank shells, mortars, and 
RPGs.
    This government fire led to casualties among South Sudanese 
civilians and U.N. personnel alike. On July 10th, an RPG struck an 
armored vehicle inside the POC site, seriously injuring six Chinese 
peacekeepers. Since the clinic at the main U.N. base did not have a 
surgical team present or the capability to perform blood transfusions, 
the wounded needed to be evacuated to a Level II trauma center located 
10 miles away at another U.N. base in Juba's Thongping neighborhood.
    Unfortunately, for nearly 22 hours after the incident, the South 
Sudanese government refused to provide the mission with the necessary 
assurances that its troops would not be fired upon if they tried to 
evacuate their fellow soldiers. As a result of these delays, two of the 
wounded peacekeepers died from their injuries. As reported by Matt 
Wells of the Centers for Civilians in Conflict, the mission's inability 
to ensure medevac for wounded personnel due to obstruction by South 
Sudanese officials contributed to a lack of willingness among 
peacekeeping troops to leave the base or engage forcefully. 
Specifically, in the case of the Terrain Hotel, some U.N. peacekeepers 
understandably believed that they would be left to bleed to death if 
they had to fight their way to it.
    To be sure, the fighting outside the camp and concerns over medical 
care and evacuation are not solely responsible for peacekeepers' 
inability or unwillingness to protect civilians. There were serious 
inadequacies with UNMISS's response in July irrespective of the medevac 
problem. Nevertheless, it is an important element of the situation to 
understand.
    Overall, while there are changes the mission must adopt to reduce 
the chance of this happening again, there are also larger issues at 
play here as well as a broader set of changes that must be adopted, 
involving not only the mission but also troop contributing countries, 
the United States, the South Sudanese government, and the U.N. Security 
Council.
            accountability for civilian protection failures
    With regards to the February attack in Malakal, the U.N. Secretary-
General established a board of inquiry to examine the circumstances 
surrounding the incident. Their final report, released in early August, 
found serious deficiencies in the peacekeepers' response to the 
massacre, and made a number of recommendations for corrective action. 
These include, among other things, the need for better command and 
control and accountability for underperformance, including the possible 
repatriation of peacekeeping commanders and/or entire military units 
found to have demonstrated a lack of will to implement their mandate.
    At this stage, the U.N. should act swiftly to fully implement this 
recommendation. Repatriation of peacekeeping military contingent 
commanders and units has been an important element of the Secretary-
General and Security Council's effort to address sexual exploitation 
and abuse within peacekeeping; it should also be a pillar of any policy 
regarding individuals or units that do not honor their mandate to 
protect civilians. Moving forward, poorly performing individuals or 
units should be withdrawn if the situation warrants. The Security 
Council must ensure that the U.N. Secretariat follows through, as 
accountability will help restore civilians' trust in UNMISS.
                troop contributing country participation
    The level of willingness on the part of peacekeeping commanders and 
individual personnel to actually risk their lives in implementing a 
mission's civilian protection mandate is a crucial component of 
peacekeeper performance. According to George Washington University 
professor Paul Williams, an expert on African peacekeeping operations, 
civilian protection ``is a very hard ask of troop and police 
contributing countries, many of whom will not want to die for the U.N. 
in South Sudan.'' This gets to the heart of what happened in Malakal 
and Juba, where as noted, U.N. peacekeeping troops stand accused of 
failing to implement their Security Council mandate, namely, protecting 
civilians who are under imminent threat of violence.
    While there are tens of thousands of troops who serve bravely and 
admirably under extremely difficult circumstances, many Troop 
Contributing Countries (TCCs)--no matter where they're from--are risk-
averse when it comes to the safety of their own personnel, regardless 
of the directives handed down by mission leadership, the Department of 
Peacekeeping Operations, or the Security Council. For example, during 
the July outbreak of fighting in Juba, the United Kingdom, Germany, and 
Sweden evacuated a dozen nationals serving as part of UNMISS without 
even consulting the U.N.--a move that, according to a U.N. memo, 
affected the peacekeeping mission's operations and dealt a ``serious 
blow to the morale'' of the force. This is to say nothing of the U.S., 
which--in the wake of the Black Hawk Down incident in Somalia in 1993--
withdrew almost entirely from providing uniformed personnel to U.N. 
peacekeeping missions. The fact is, no amount of training, force 
enablers, or field experience can be effective in the absence of 
willingness on the part of peacekeeping troops themselves and officials 
in their home countries to fully carry out the responsibilities laid 
out in any given mission's mandate.
    That being said, one underlying issue that the attack in July 
exposed is the medical and casualty evacuation limitations faced by the 
missions, which has contributed to TCC unwillingness to venture beyond 
their bases or conduct more dangerous patrols. In the case of the 
fighting in July, while there were air assets and road convoys 
available, the South Sudanese government refused to provide the mission 
with necessary assurances that its troops would not be fired upon if 
they tried to evacuate wounded personnel.
    But there is also a larger issue of UNMISS and other U.N. 
peacekeeping missions having limited air assets for medevac and 
casevac. As has been documented, U.N. missions have lacked vital air 
assets like helicopters.
    Last year in advance of the Leaders' Summit on Peacekeeping--
convened by President Obama and held at the United Nations--I wrote an 
op-ed which noted that the inability to ensure that wounded personnel 
can be quickly evacuated is understandably leading some peacekeepers to 
be risk-averse in their projection of force, inhibiting longer-range 
patrols and undermining civilian protection. It also leads to troop 
contributing countries being reluctant to put their personnel in harm's 
way. It has been made clear to me in trips to U.N. missions that 
peacekeepers place fundamental importance on every effort being made to 
get them immediate medical care, and that the inability to do so is 
highly detrimental to soldiers' morale.
    Medical and casualty evacuation is an area where the United States 
could assist missions, by either deploying U.S. specialist military 
contingents to U.N. peacekeeping operations in support roles with air 
and medical assets, or via existing National Guard Partnership 
Programs. It would be inconceivable for U.S. troops to conduct patrols 
without medical or casualty evacuation capability and it should not be 
the case for U.N. soldiers either. Enhanced medevac and casevac 
capabilities would send peacekeepers a message of support and increase 
the likelihood that Troop Contributing Countries would back robust 
engagement by their personnel.
              obstruction by the south sudanese government
    Since the outbreak of civil war three years ago, the Government of 
South Sudan has gone to extraordinary lengths to restrict UNMISS's 
freedom of movement. As Samantha Power noted during a visit to South 
Sudan by Security Council Ambassadors in early September, ``The number 
one obstacle for the peacekeepers fulfilling their mandate has been the 
severe restrictions on their movements.'' To be clear, the Status of 
Forces Agreement (SOFA) signed by UNMISS and the South Sudanese 
government gives peacekeepers the right to move and patrol throughout 
the country unhindered. In practice, however, the government routinely 
violates these understandings, putting up roadblocks to impede U.N. 
patrols, requiring the mission to obtain permission to fly its own 
helicopters or risk these aircraft coming under fire, and harassing, 
intimidating, or even physically assaulting UNMISS civilian staff. In 
addition to movement restrictions, the South Sudanese government has 
repeatedly rejected requests from UNMISS to bring in certain types of 
technology that could improve the ability of peacekeepers to project 
force, including surveillance drones, communications equipment, and 
some weapons. These obstructions have seriously hampered the mission's 
day-to-day operations and placed the safety of U.N. personnel at 
unnecessary risk.
    On August 12th, in response to the July violence, the Security 
Council voted to deploy a 4,000-soldier Regional Protection Force (RPF) 
to help stabilize Juba. The Force, which will be under the command of 
UNMISS, is tasked with protecting major lines of communication and 
transport into and out of the capital, securing the airport and other 
key facilities, and taking robust action to ``promptly and effectively 
engage an actor that is credibly found to be preparing attacks, or 
engages in attacks, against United Nations protection of civilians 
sites, other United Nations premises, United Nations personnel, 
international and national humanitarian actors, or civilians.''
    While more troops are certainly needed to help secure the capital, 
it is doubtful they will have much of an impact absent a fundamental 
change in posture by the government towards the mission more generally. 
Since the adoption in August of Security Council Resolution 2304 
authorizing the RPF, South Sudanese authorities have made a series of 
contradictory statements, at first rejecting the force as a colonial 
intrusion, then agreeing to its deployment during the Security Council 
visit earlier this month.
    Since then, however, South Sudan has placed a number of problematic 
conditions on its acceptance of the RPF, stating that the government 
should be able to determine the number of troops deployed, the 
countries allowed to contribute to the force, and the types of weapons 
they are able to bring. These statements raise serious questions about 
whether, once on the ground, the RPF will be subject to the same 
obstruction tactics as the rest of UNMISS.
    As a result, the international community must urgently prioritize 
efforts to combat this long-running pattern of intransigence on the 
part of the Government of South Sudan. As a first order of business, 
the Security Council must be more willing than it has been in the past 
to forcefully and publicly condemn the Government for violations of the 
SOFA--their collective silence only emboldens the government to 
continue its obstruction. The Council should make clear that attacks on 
U.N. peacekeepers and humanitarian personnel--70 have been killed to 
date--constitute war crimes, and it should name and shame those who 
carry out these illegal acts. In addition, UNMISS leadership itself 
needs to do a better job of regularly reporting when peacekeeping troop 
movements are blocked or soldiers are targeted. Such transparency 
measures are critical to assuring peacekeepers that they enjoy the full 
backing of the international community as they seek to implement their 
mandate.
    In addition, the Security Council, U.N. Mission and Troop 
Contributing Countries must be prepared for the challenging 
implications stemming from a more forceful policy towards the South 
Sudanese government i.e. Is the mission willing and able to engage in 
active combat with the government--the U.N.'s host in South Sudan--to 
protect civilians? What are the implications of large-scale, active 
combat between the U.N. and the SPLA to the long-term future of the 
mission? Will the Security Council finally move forward with an arms 
embargo?
                  arms embargo and targeted sanctions
    Since its independence in 2011, the U.S. and its international 
partners have prioritized productive relationships with the country's 
leadership but that has failed to deliver the anticipated dividends. 
Consequently, it is critical that the Security Council take action 
against the South Sudanese government to incentivize cooperation with 
the international community. First and foremost, the Council should 
heed repeated calls made over the last several years by U.N. Secretary-
General Ban Ki-moon, other senior U.N. officials, and numerous civil 
society organizations, and establish a long overdue arms embargo on 
South Sudan. This type of measure could help shore up the peacekeeping 
force, which, as it stands, is severely outgunned by the parties to the 
conflict, particularly the South Sudanese government. Indeed, a recent 
article published by IRIN quoted an unnamed U.N. official as stating 
that, ``The firepower in the hands of the SPLA thanks to the absence of 
an arms embargo is overwhelming in terms of its superiority to what the 
mission has.'' The article went on to note that, ``According to recent 
analysis carried out by the Small Arms Survey, an embargo would in 
particular impact the fearsome Mi-24 attack helicopters the government 
has in its inventory, as the foreign contractors that keep them flying 
would be outlawed.'' Earlier this month, a report put out by a U.N. 
Panel of Experts bolstered this argument, concluding that, ``the 
continued influx of weapons.contributes to spreading instability and 
the continuation of the conflict.'' In addition to an arms embargo, the 
Security Council should consider expanding the list of individuals 
subject to targeted sanctions--namely asset freezes and travel bans--to 
include Salva Kiir, Riek Machar, and other high-ranking South Sudanese 
officials responsible for the violence.
    While it is highly unlikely that imposition of an arms embargo or 
targeted sanctions alone would be sufficient to end the conflict, they 
could help reduce the flow of critical resources that have allowed both 
parties to act with virtual impunity. At the very least, they would 
send a strong signal that the international community has lost patience 
with Kiir and Machar, and expects them to return in earnest to the 
negotiating table and cooperate fully with the peacekeeping mission.
                               conclusion
    Mr. Chairman, Ranking Member Cardin, these are indeed dark days for 
innocent civilians in South Sudan--those who have already been attacked 
and the hundreds of thousands still in need of protection. The U.N. 
Mission, the United States, Troop Contributing Countries, and the 
Security Council must thoroughly review the mission--its mandate, 
military capacities, command and control structure, and rules of 
engagement--to ensure that it can best protect civilians. All global 
players must continue to pressure the Government of South Sudan--in 
fact all warring parties--to stop the killings of civilians, and return 
to a partnership with the U.N.


    The Chairman. Thank you.
    And thank all of you for that great testimony.
    I want to commend the ranking member on an excellent op-ed 
that was just published on this very topic and defer to him now 
on questions.
    Senator Cardin. Well, thank you, Mr. Chairman.
    I thank all four of you for your insight. You certainly 
raised a lot of questions as to how we can be effective.
    One thing is clear to me. We will not abandon the people of 
South Sudan. They are in critical need, and they need the 
international community.
    But it does raise whether our aid program, whether the U.N. 
peacekeepers, are effective or not. I am all for peacekeepers. 
I am all for humanitarian assistance and good governance 
assistance. But if it is not carrying out its purpose, then we 
have to look for other means to accomplish those ends.
    Imposing sanctions may very well be needed, including arms 
embargoes and governance issues. So we will look at all these 
issues.
    Quite frankly, I agree with you. The circumstances are 
challenging. I am not sure that they are that complex. You have 
corrupt leaders in a corrupt country where they are more 
concerned about themselves than their people. You have leaders 
who are committing war crimes.
    When you use your civilian as military tactics, that is a 
war crime. When you allow your military to gang rape civilian 
populations, that is a war crime.
    I appreciate, ``We should threaten to hold them 
accountable.'' No, we shouldn't. We should hold them 
accountable. Too many times, we said we are going to hold 
perpetrators accountable, and we have not held them 
accountable.
    So the current leadership needs to be held accountable, 
because it is impossible for me to believe this type of conduct 
is taking place without the President or Vice President fully 
complicitous in these operations.
    So culpability needs to be accounted for, and we need to 
move forward.
    Now, several of you mentioned looking for a new governance 
structure and imposing an arms embargo. I would like to perhaps 
drill down a little bit on an arms embargo and what impact it 
would have as a practical matter. But I also want to get into 
the governance issues, imposing some type of a trusteeship to 
the country.
    The historic examples normally follow international forces 
or a country--East Timor, if I am correct. I think Australia 
went in originally and then the U.N. came in later. Certainly, 
in Kosovo, NATO was actively engaged before the governance 
structure.
    We don't have that capacity in South Sudan, so I am not 
exactly sure how you get to that point where you could have an 
effectively controlled U.N. trusteeship of sorts imposed.
    So I would just ask, briefly, if you could respond to 
whether a U.N.-imposed arms embargo could effectively change 
the equation here, whether it is realistic to expect that we 
could impose a governance structure, considering the current 
status on the ground, and whether there are any other 
significant changes in strategy that we should be considering 
in order to protect the people of South Sudan.
    You can just start. I can't pronounce your names as well as 
the chairman.
    Dr. Jok. Thank you very much. My position on the arms 
embargo or any kind of sanction is that having listened and 
read the pulse of South Sudanese politics for many years, I 
feel that it would be very, very divisive and not just divisive 
between the political leaders, those in government who are 
opposing and those opposition are for it, but also among the 
population, in the sense that those who are supporting it would 
be seen as the ones who are selling the country to the 
international community. There is a lot of anti-intervention 
rhetoric rising in South Sudan, all across South Sudan.
    So I think it would inflame those differences much further. 
Especially if it is something that the government is opposed 
to, the government can always rally people behind it and say 
those people over there are selling our country.
    Ms. Knopf. Thank you very much for the question.
    I do think an arms embargo is necessary, can be effective. 
It is long, long, long, long overdue, the fact that either 
side, any side--there are more than two at this point in the 
conflict--can continue to procure weapons. We know, in fact, 
that the government most particularly is procuring heavy 
weapons, including jets, since the formation of the 
Transitional Government of National Unity and that they are 
using these heavy weapons against their civilian population.
    So the fact that we would even discuss any more 
peacekeepers in that scenario where we are not also stopping 
them from procuring weapons seems completely disconnected.
    A second point on the effectiveness of an arms embargo, 
there are not that many points of entry in South Sudan where 
you can bring in truly heavy equipment and munitions. Yes, 
small arms and light weapons can move across the border. It is 
very porous. That we won't have a good chance at monitoring and 
probably stopping very much of. But this other kind of 
procurement that is going on, there aren't that many airstrips 
that can handle that level of equipment. The roads don't exist 
outside the one that the United States helped to build, for the 
most part, from Uganda into Juba.
    So it is not as complicated as it might seem in other 
places, and it has been done effectively in Cote d'Ivoire and 
other circumstances.
    Thirdly, in an arms embargo, it is necessary as a signal to 
all the parties and to the people of South Sudan that the 
international community, the United States, we find this 
conflict utterly beyond the pale morally. There is no right 
side here, and no one should be continuing to arm themselves to 
pursue violence as a means toward their political ends.
    And so I do think it is an important part of the overall 
calculus that gets us to a place where we could then discuss an 
alternate form of governance for South Sudan. A trusteeship, an 
international transitional administration, can't be imposed on 
South Sudan. That is not what I am suggesting. I do think that 
is beyond any realm of possibility, or usefulness, frankly.
    But I do think that the people of South Sudan, they want to 
be fed. They want to be able to feed themselves, more 
importantly. They want to go about their lives the way they do, 
whether that is fishing, herding, going to a business in the 
city, whatever that is. They don't have the daily safety and 
security to do that. They don't have any services from their 
government to support and enable their livelihoods.
    And an international administration would, in fact, make it 
easier for the international assistance that already does 
provide most of that assistance that exists.
    Senator Cardin. I know my time is up. I would just make the 
observation that I agree with your assessment, but if the 
leaders are not going to agree to it, it is hard to mobilize 
the people in the current political security situation in the 
country to be able to get the people effectively to encourage 
international action for a trusteeship. So I just think it is 
going to be very challenging to bring that about.
    Ms. Knopf. Senator Cardin, it is going to take more than 
sanctioning six individuals. That is what we have done so far.
    Senator Cardin. I agree with that.
    Thank you.
    The Chairman. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    I want to make sure I understood what each of you were 
saying.
    As I understood Dr. Kuol--am I pronouncing your name 
correctly?
    Dr. Kuol. Yes.
    Senator Shaheen. You argued that the peace agreement was 
still viable. As I understood everybody else on the panel, you 
all disagree with that. Is that correct?
    Mr. Yeo. Yes, I believe that is correct.
    Senator Shaheen. And I understood the rest of you 
correctly?
    Dr. Jok. I am saying that there is room for South Sudanese 
leaders to be pushed to come up with a program that would steer 
their country out of this crisis.
    Senator Shaheen. Under the current agreement?
    Dr. Jok. Under the current agreement, yes.
    Senator Shaheen. I didn't understand you to say that.
    The Chairman. If I could, how would you push them? It just 
sounds----
    Dr. Jok. Okay. So already the country is now broke, right? 
And they are relying on foreign aid to feed their people. 
Continuation of this support can be predicated on them coming 
up with a program, which is a national, homegrown program that 
will help the country get out of this. Then what they will do 
is ask for support, which will be based on producing the 
credible prioritized program that says by year one, we will 
have achieved this, by year two, we will have achieved this, so 
that what they are doing is actually their own plan.
    What the international community is doing as supporting 
that plan, after the international community has verified it 
and investigated it and found it credible and implementable.
    The Chairman. Thank you for letting me intervene there.
    Senator Shaheen. Thank you. It is still not clear how we 
achieve that.
    Maybe it is through what you suggested, Ms. Knopf, which is 
the transitional administration. You suggested that in order 
for that to be successful, it would have to be supported by the 
U.N. and African Union. Is there support at the U.N. and the AU 
to do that?
    Ms. Knopf. It is currently not under discussion at the U.N. 
and the AU. It is a proposal that has been made publicly now by 
Ambassador Lyman, the former special envoy, and myself in an 
op-ed in July after the outbreak of this fighting.
    There are private discussions taking place about it, and I 
do think there is support that can be found within the region 
and that it is not outside the realm of possibility for both 
regional, and certainly it is not outside of precedent for the 
U.N. Security Council to do this, to help a country out of 
conflict.
    Senator Shaheen. Mr. Yeo, you are agreeing with that?
    Mr. Yeo. I agree. At the moment, the discussion at the 
Security Council is around stabilizing the situation in South 
Sudan through the deployment of this regional protection force, 
which has some upsides and some significant downsides if it 
still has to operate under the same conditions that are facing 
U.N. peacekeepers in South Sudan.
    But I do think that if the regional protection force is not 
agreed to by the Government of South Sudan and there are not 
any other type of meaningful steps moving forward in terms of 
the peace process, then the Security Council will indeed have 
to consider whether there should be discussion around moving 
toward the next step, which is toward more of a protectorate.
    Senator Shaheen. I understood you to say that the special 
envoy, as well as yourself, is arguing for that. Is there 
anyone at the Security Council at the U.N. who is arguing for 
that? Is that the position of the United States and our policy 
to try to make that happen?
    Ms. Knopf. Just to be clear, the former special envoy, not 
a sitting official. And it is not the policy of the United 
States to push for this at this time.
    Senator Shaheen. What is the policy of the United States at 
this time?
    Mr. Yeo. As I said, at the moment, the administration 
continues to focus on trying to move forward with this 
stabilization effort through the regional protection force and 
then ultimately trying to move all of the political parties 
back toward a negotiated solution. But I would think that it is 
important to ask the State Department and the U.N. mission 
directly as to what they realistically see are next steps.
    The Security Council will next consider this in mid-
October. At the moment, the Secretary General of the U.N., Ban 
Ki-moon, is awaiting a report from the former President of 
Botswana, who has been tasked to put together a report on how 
to deploy this regional protection force.
    As you know, the Security Council went to South Sudan. They 
got an agreement from the government to deploy 4,000 new 
troops. And since then, there have been extensive discussions 
about where the troops are going to come from and how they are 
going to be armed and what their mission will be.
    So there is a report due to the Secretary General, and the 
Security Council will consider this again in mid-October.
    Senator Shaheen. And is it fair to say that approach is not 
working?
    Mr. Yeo. From my perspective, I do not believe the approach 
is working.
    Senator Shaheen. Does anybody think it is, on the panel?
    Dr. Jok. We haven't seen much progress since, because, as 
the timeline that he has described, there is no report that 
says, yes, this has been achieved. What was supposed to happen 
after the visit of the Security Council ambassadors was for a 
negotiation of the modalities of implementation of deployment, 
but that has not happened yet.
    Dr. Kuol. Maybe just let me, I just want to make a 
counterfactual statement. Your point is very valid.
    I think most important is what can we do rather than what 
we intend to do. This I believe--how shaky is this peace 
agreement? It is something that we should invest in. It is 
something we can do.
    That is why I focus on this element, anti-peace. If the 
U.S. Government, through its influence, to have sanctions on 
these few elements, I think we are likely to see the 
difference.
    Senator Shaheen. But there's disagreement among your panel 
members as to whether that is in fact what might happen. As I 
understand the other members of the panel, they don't agree 
with that.
    Dr. Kuol. But equal important, given the option of having 
what other options--I just want to give you an example of the 
U.N. Security Council.
    I was working on Abyei, and I pursued it from The Hague to 
wherever until I reached New York. No consensus. Even among the 
people of Abyei, they conducted their own referendum. Look at 
what happened to Crimea. Russia refusing even to accept the 
referendum of the people of Abyei while they accepted the one 
of Crimea.
    It is a very clear difference--that may not move. That is 
why I believe the U.S. Government has a chance of doing through 
its own what they can be able to do.
    One of them is the issue of sanctions on these individuals. 
As of now, people are not even hearing what you can be able to 
do because if you talk about something very big, the region 
must have consensus we cannot have.
    The Sudan Government has its own interests to finish the 
Government of South Sudan. You cannot have a consensus in the 
region. If you go to the Security Council, you may not get it.
    Even the sanctions, an arms embargo is so difficult to 
build a consensus, even some people committing, violating, the 
agreement, not even an action to impose sanctions. That 
consensus is not there.
    Senator Shaheen. I know my time is up, Mr. Chairman, but 
can I just ask, what happens if the international community 
leaves entirely?
    Mr. Yeo. Well, I can address the specific issue of the U.N. 
mission. As I said, there are 200,000 civilians currently being 
protected by U.N. peacekeepers in South Sudan. If the mission 
there were to leave, then those 200,000 would be very much at 
risk in terms of their personal security, either from the 
government or from other militias that are heavily armed 
throughout the country. And certainly, if the U.N. mission were 
to wind down, we would need a plan to make sure that those 
200,000 civilians have a place to go, so that they would not be 
killed as the peacekeepers left the country.
    Senator Shaheen. Does everybody agree with that, basically?
    Ms. Knopf. Certainly that there are some individuals 
receiving protection from the international presence at the 
moment. But I think to Jok's point in his statement, there is a 
very serious question as to, are we, in the long-term, 
prolonging the situation by Band-Aid approaches, right?
    So while some people's lives are being saved, and we don't 
want to minimize that, we really, on every metric, the 
situation in South Sudan has deteriorated. And it continues to 
deteriorate.
    Since the signing of the peace agreement, since 9 months 
later the formation of the transitional government, since 
several months after that, the First Vice President was 
replaced by the other First Vice President, nothing improves 
the situation. It continues to get worse.
    And so we have a choice to stay where we are on the path 
that is not seemingly effective, move toward a path that I am 
suggesting, or the alternative is that we pull back and we let 
the conflict take its course at pretty significant cost to the 
people of South Sudan, but maybe in the longer run then will be 
forced to come back around to some other solution that helps 
restore South Sudan to viability. Or it will be Eastern Congo 
or Somalia for a long, long time.
    Senator Shaheen. Thank you.
    The Chairman. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you all for some really great testimony. I think you 
can hear us trying to divine the differences between the four 
of your recommendations. To a certain extent, it seems to come 
down to what mix of carrots and sticks we are trying to use to 
change behavior.
    Dr. Jok, I think you heard some pushback from the chairman 
on this notion that things will change if we just apply 
conditionality to aid. A lot of people would suggest that that 
is essentially the policy that we have tried so far, that we 
have put in almost $2 billion worth of aid, we have attached 
conditions on it. We never give that away for free. And yet we 
are still in a state of spiraling crisis.
    So if you could just maybe specifically respond to some of 
the things that Ms. Knopf was saying, in that she is 
recommending this is the moment in which you have to use more 
sticks, or at least a lot of sticks, in addition to carrots 
here.
    You suggested that maybe the arms embargo is not the right 
move. But what are the roles for a message of consequence 
versus a message of conditionality attached to aid? And speak 
to our reluctance to support that path forward, given that it 
hasn't worked so well in the past.
    Dr. Jok. Thank you, sir.
    I think the idea that the international community pulling 
away from South Sudan as a way to force them to think for 
themselves, there are avenues to it. One is that the government 
is engaged in discussion with the IMF right now, because 
without any international financial assistance, that government 
is not going to have the capacity to deliver anything. There is 
no money in the country whatsoever.
    So in that discussion, where the government might get some 
financial assistance, a loan or what have you, it should 
definitely be put through to the government that you can only 
get it if you do X, Y, and Z.
    Senator Murphy. But haven't we done that?
    Dr. Jok. Not really. You might have done it in terms of 
direct assistance to the government, into the bureaucracy of 
the government. But the flow of money into humanitarian aid is 
still benefiting the government, the country as a whole.
    And so one way you might push that conditionality without 
compromising the lives of South Sudanese is actually to inject 
that aid directly into projects run by South Sudanese, probably 
South Sudanese Americans, the programs that many South Sudanese 
Americans have created, schools and hospitals and many kinds of 
local projects. And if money was injected directly into those 
programs, and these are the programs that you see in the 
countryside all over South Sudan. These are programs that are 
showing results, and money doesn't get wasted through the 
government bureaucracy, doesn't get stolen because it goes 
directly into the projects. So that might be a balance.
    Senator Murphy. The threat of withdrawing humanitarian aid 
is only so good as the concern that leaders show for the people 
who are receiving the benefit of that aid. There is not a lot 
of evidence to suggest that the leaders today are persuaded to 
change their behavior in order to effectuate better living 
conditions for the people of South Sudan.
    Ms. Knopf, can I just ask you to talk about what happens on 
the other side of the transitional government that you are 
recommending?
    You have thrown some cold water in your testimony on the 
possibility of power-sharing, and maybe power-sharing doesn't 
work today, but won't there have to be some power-sharing 
agreement on the other side of a transitional international 
government? How do you get around the inevitability of 
different elements being part of a government coming on the 
backside of what you are recommending?
    Ms. Knopf. Sure. I think the point for me, the critical 
thing about international transitional administration, is that 
we would be borrowing both capacity and borrowing legitimacy in 
terms of delivering services, administering basic public 
governance for the people of South Sudan, which is at a very, 
very low level right now. Again, most South Sudanese are just 
trying to survive.
    So we are trying to stabilize that situation, create some 
space for the economy to come back for daily safety and 
security to exist for the people of South Sudan, and then 
critically for several important processes to take place, a 
constitutional process where the people of South Sudan can 
participate in a dialogue and a conversation on what they want 
from their government. That has never happened. It has never 
happened. And so what the state should look like on the other 
end of a transitional administration should come from the 
people of South Sudan, and what they want from the central 
government, what they want from state and more local level 
government.
    And by taking the competition over the prize of the 
presidency, and the very few resources that one gets by winning 
that prize at the moment, take that off the table for a long 
breathing space, 10 to 15 years, and reconciliation and 
accountability have to happen. This conversation and a 
constitutional process has to happen, while an advisory 
committee of South Sudanese, of course, have to be part of the 
overall advice of the country and the technical administration 
of it. But the efforts and the focus need to be on these other 
processes.
    Senator Murphy. Ten to 15 years is what you're 
recommending?
    Ms. Knopf. Absolutely, yes.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Just to pursue that a little further, first of all, I 
appreciate everyone's testimony today.
    But how do you get a government that is enriching itself 
presently, how in the world do you get people to agree? I mean, 
this is the way they want things currently. They are doing it 
with armed forces and genocide and rape.
    So how do you just impose some kind of transitional 
government? It seems nice but undoable.
    Ms. Knopf. So I don't think we can impose it without 
sending much tougher messages to the leadership of South Sudan 
and putting hard constraints on their behavior, which we have 
not done. We haven't done that.
    We have targeted sanctions on six individuals of medium 
significance, shall we say. And for the rest of them, they all 
continue to prey upon their country at will.
    This is a government now that we need to think about, like 
we thought about Khartoum with Darfur, like we think about 
other countries where the government preys on its people. That 
is what it does.
    It is not a partner for development assistance. We should 
not be supporting IMF financial bailout packages for them. We 
should not be entertaining anything that we would in a normal 
development relationship.
    I was the first USAID mission director for Sudan and South 
Sudan when we reopened the mission of the United States in 
2005, 2006, after the signing of the comprehensive peace 
agreement. Everything that we used to fight against Khartoum 
for the people of South Sudan, this government is now doing 
against its own people, and we are not sending clear signals 
and messages back to them.
    So of course they will resist, but we have to change their 
calculus, and we have to put something that is attractive and 
what the people of South Sudan, I think, ultimately want. They 
want the space to resume their lives.
    So it does require a pretty fundamental change in approach 
to get from here to there. We can't do it from where we are 
right now.
    The Chairman. How would you assess the U.S. role right now 
in South Sudan and whether our role there today is constructive 
or destructive?
    Ms. Knopf. I think that the United States is a critical 
partner for South Sudan. We truly have been, as you well know. 
And this Congress has supported over the years the $11 billion 
of assistance, the political support to get to the 
comprehensive peace agreement for self-determination for the 
people of South Sudan, on and on and on. And ongoing aid levels 
are still significant.
    The Chairman. But in your earlier comments, you were 
talking about withdrawing.
    Ms. Knopf. I do think that we have crossed a lot of 
redlines lately. The attacks on the Terrain compound, on aid 
workers, on journalists, South Sudanese and American and others 
alike, beyond the pale, completely outrageous, never mind all 
the other harassment and obstruction that this government is 
placing on the aid operation. I truly find it astonishing that 
we tolerate that level----
    The Chairman. How would us withdrawing our Ambassador from 
the country affect things on the ground?
    Ms. Knopf. I think Jok and others could answer, but I think 
that would send a very significant message.
    The Chairman. Would that be a positive message?
    Ms. Knopf. I think, in my view, things are so bad and the 
situation can get so much worse that we need to send every 
difficult message that we can think to send at this point, but 
it has to be in the context of an overall policy to back that 
up.
    So just withdrawing the Ambassador as a one-off piece of 
policy does not necessarily improve the situation. But if we 
undertake to send a clear message to President Kiir, to his 
current advisers and leadership, to the leadership of the 
opposition, that this situation cannot and will not be 
tolerated, then that message could well be advanced by 
withdrawing the Ambassador.
    Mr. Yeo. And I think any type of discussion of the 
withdrawal of the Ambassador has to be done in the context of 
the key players, both in the Security Council and in the 
region, so that there is an effective approach toward the next 
step in terms of South Sudan, as opposed to withdrawing 
American leadership in terms of resolving this very difficult 
situation.
    I would just agree that everything that we do in terms of 
our own diplomatic presence has to be done in close 
coordination with other key players in the region and as part 
of a broader American strategy as to what is the next step in 
terms of our approach toward resolving this horrendous 
situation in South Sudan.
    I would just note that at every possible stage in terms of 
the humanitarian aid situation, the government continues to 
throw up massive hurdles to the delivery of aid to its own 
people. There are 1.4 million, 1.6 million people that have 
been displaced from their homes in South Sudan, and their 
primary lifeline is U.N. humanitarian assistance. And the 
government at every stage makes it difficult through rules and 
regulations and other procedures to actually deliver this aid.
    So this is something that really needs to be considered as 
part of a broader strategy in our next step with South Sudan.
    The Chairman. Senator Cardin defined a war criminal 
earlier, and it seemed that the entire panel agreed that the 
leadership there now, by definition, they are war criminals.
    Does the panel agree with that a hundred percent?
    Dr. Kuol. Let me--I will come back to this peace agreement.
    The Chairman. Let me just ask you that question first.
    Is the current President of South Sudan, by definition, a 
war criminal?
    Dr. Kuol. That is what is provided in--because it is--there 
is a commission of inquiry, African Union Commission of 
Inquiry. That is the basis upon which you can have evidence, 
and that is why it needs to be implemented.
    And the commission came out with a very clear 
recommendation about this hybrid court. This hybrid court will 
use the evidence provided by the commission, as well as the 
human rights reports. It is on the basis of that that now you 
can talk about the issues of who is to be brought to justice.
    Ms. Knopf. The African Union Commission of Inquiry, led by 
former Nigerian President Obasanjo, did find that President 
Salva Kiir and Riek Machar are both guilty of war crimes and 
crimes against humanity. And one of the steps that that report 
recommends that has not been acted upon is the establishment of 
hybrid court that would then look at all the perpetrators and 
decide who should be prosecuted for what.
    Dr. Jok. There is no question that horrible things have 
been done and that somebody has to account for them. And the 
only judgment we can make can only be based on the 
investigation to assign blame, because right now blame can be 
assigned generally to SPLA or to opposition armies, but those 
are not human persons to be held accountable. We have to pin 
some of these things on individuals, and that can only be done 
through these investigations.
    Mr. Yeo. I would just associate myself with Kate's remarks 
that this determination has already been made. When you look at 
the specific issue of, for instance, what happened to the South 
Sudanese soldiers that actually conducted the attacks on the 
innocent civilians at the Terrain compound, but also outside 
the peacekeeping camp, they have yet to be punished in a 
meaningful way.
    So we know that at the highest levels in the Government of 
South Sudan, there is unwillingness to move forward with 
meaningful justice, even when presented with overwhelming 
evidence of crimes.
    The Chairman. Dr. Kuol, earlier in your testimony, you were 
saying we need to encourage the leadership along. It seems 
inconsistent. I mean, you have people who are conducting on 
both sides war crimes against the populations that show an 
affinity to the other leadership in opposite directions. It is 
hard for me to see how that is a path forward that makes a lot 
of sense.
    Let me ask it maybe in a different way. So we represent the 
American people, and I know we have all these aspirational 
discussions about the international community and the United 
Nations, but the people that we represent are the people here 
in our own country. I don't know, I would assume audiences 
tuning in from across America having someone advocate that we 
continue to support people who are conducting genocide and mass 
rape and other kinds of things against their people, 
encouraging them along, they would have some issue with that.
    Again, at the same time, not to be offensive, the 
imposition upon people who are not willing for some kind of 
transitional government or neo-trusteeship government also 
sounds somewhat far-fetched, no offense.
    I just don't see a solution here that makes a great deal of 
sense. But you still think we ought to encourage them along on 
the peace process?
    Dr. Kuol. Let me go back to the issues of the peace 
agreement generally in the world. It is usually an agreement 
between the elites.
    The Chairman. Elites.
    Dr. Kuol. Elites. Power-sharing of elites. It is a fact of 
the matter. These very elites in most cases participated in 
war.
    Look for the comprehensive peace agreement. It was signed 
by the Sudan Government, Bashir, and the SPLA, but there was no 
other option except that they have to work together in order to 
implement the peace agreement, the comprehensive peace 
agreement.
    So I see the fact that some of these leaders who actually 
participated in war becoming the makers of peace, depending on 
what leverage that we have on them, because at the moment the 
other option is, can we do without them? That is the question. 
Because if we do without them, it would be the easiest way. But 
if you cannot, the peace agreement, in fact, is providing the 
issues of accountability and justice.
    That is why there is this hybrid court even in the peace 
agreement. The problem is what we do in order to influence 
these leaders.
    I want to build on what Kate said also on this issue of the 
leverage you can have in the region. These two leaders, if you 
have all these accounts of what they had committed, it is high 
time the region exert diplomatic pressure on them based on the 
facts on the table so that they can give way for new people to 
come. Otherwise, when we say we cannot impose anything on them, 
but you cannot even use violence in order to remove them, and 
the only possible option for us then is this peace agreement 
that we can exploit first to bring justice to expose them and 
to make sure that they are known and the people they know, that 
there are internal dynamics of making them accountable.
    Senator Cardin. Mr. Chairman, I would just observe I think 
the chances of the current leaders in South Sudan holding the 
perpetrators of atrocities accountable, including themselves, 
is close to zero. And I think that is the reality.
    You can have all the findings. It is going to be more and 
more challenging as time goes by to have the necessary 
documentation preserved for accountability. There is going to 
be more and more pressure to try to work out some 
accommodations with existing leaders, and they are not going to 
be interested in holding their leaders accountable for the 
atrocities that they have committed.
    And it is also very clear, it has been documented not just 
by the commission you are referring to, but by so many first-
party accounts of what happened and who was there, who watched 
it, who allowed these atrocities to take place, that this was 
condoned by the leadership of South Sudan.
    So I thought your suggestion, recalling our Ambassador for 
that type of conduct, would be an appropriate response to show 
that we don't want to have a mission headed by an Ambassador 
where there is impunity for that type of conduct. I think that 
is just one aspect of this.
    I said earlier we don't want to abandon the people of South 
Sudan. I think the U.N. mission, which is the most active 
international effort, that we really need to work to see 
whether we can get the cooperation so the mission can do its 
work in South Sudan.
    Obviously, if they cannot do it safely, then we have to 
look at plan B, and we have to look at removing the mission and 
safely protecting the people who are currently under the 
protectorate. But I think it is important, if we can get that 
mission effectively operating in South Sudan.
    I think we also have to empower and protect the civil 
societies who are providing most of the humanitarian aid and we 
have to support that strongly because we know their intentions 
are to help the people and not just to divert the resources for 
their own gain. So I think there are things that can be done.
    But fundamentally, I have lost confidence in the peace 
process. I think Senator Shaheen's question, I really don't 
think this peace process can go forward. I think we are going 
to have to look at a restart here. I don't believe the current 
leaders are capable of bringing their country into peace.
    We haven't talked about, I think it is Mr. Deng, the new 
Vice President who, as I understand it, has no constituency, is 
part of corruption that has been pretty well-documented, and is 
terribly unpopular. If I am right on those assumptions, I don't 
see how he is a healing force to try to bring together the type 
of respect for the process.
    So I think in all those areas, we need to really rethink 
where we are.
    One thing is also clear to me, Mr. Chairman, continuing the 
current policies without change makes little sense. I am for 
protecting as many people as we possibly can. But long term, we 
are not doing a service if we don't have a game plan for the 
country to be viable.
    I personally believe an arms embargo is something that 
should been a long time ago, and I really do think the United 
States should pursue that, and I hope that we can be somewhat 
helpful with our delegation to see whether we can move that 
along a little bit further.
    On a personal note, if I might, one of our staff people, 
Mr. Chairman, this is her last meeting with us, Janelle 
Johnson. She has been here for 3 years doing great work and is 
moving on to the U.S. Holocaust Museum. We would like to wish 
her the best. [Applause.]
    The Chairman. Thank you and best wishes. It is an 
outstanding organization, and I know you will make it even 
better than it is. Thank you for your service here.
    I am going to ask a couple more questions. I know we had a 
lot going on, and please don't feel like you need to stay.
    I don't want to give the impression that I think 
withdrawing our Ambassador is the solution. I realize there has 
to be follow-ons that go with that.
    And I will say there have been numbers of people that, as 
we talk about an arms embargo, believe that much of it will 
still flow into the country from Uganda. That doesn't mean that 
it is not something that should be taken up.
    I think about U.S. foreign policy. We have been really 
involved in the creation of South Sudan. We have had a long 
history. Jack Danforth was highly involved and then people came 
on behind. I remember one of my first trips to Sudan and 
Darfur, this was really the focus, the future of South Sudan 
and how the central bank, how all this was going to be set up, 
and how they were going to get oil out of the country. They 
were landlocked, how they were going to negotiate a transport 
agreement through Sudan itself.
    But just to step back, since all of you are experts in this 
area, we haven't had, and this is through different 
administrations over 15 or 16 years, we just haven't had a lot 
of foreign policy successes. It is not a partisan statement. We 
just have not, as a Nation.
    I am just wondering, I know we have some critical issues 
that need to be dealt with here. You all shed a lot of light on 
it. We are going to talk further and probably enlist your help 
in some areas.
    But just stepping back 10,000, 20,000, 30,000 feet, we have 
been highly involved here--highly involved--through every step 
of the way, the vote, the peace process, and we have chaos on 
our hands. We have people who are being harmed greatly right 
now by brutal people who are very self-serving.
    Can you shed some light just on some observations, in this 
particular focused area, just some observations about our 
leadership and some of the things that we might think about 
differently as we move through troubled areas like this?
    Mr. Yeo. Do you mean foreign policy generally?
    The Chairman. As it relates to just here. That would take 
days, I think. Just on Sudan itself, South Sudan.
    Mr. Yeo. Yes, I would say that what happened in terms of 
the successes in terms of moving Liberia forward and Timor-
Leste are important messages as we think about moving forward 
with South Sudan. In both cases there was a focus on making 
sure that the regional players were willing to be leaders to 
resolve the situation in terms of a country on the border.
    So we need regional players, as they have been, to continue 
to step up in a meaningful way.
    Second of all, the Security Council ends up becoming the 
most important place to coordinate global policy and approaches 
toward sanctions, common issues relating to peacekeeping. And 
when you think about all of these countries moving out of Civil 
War, it is a role of the humanitarian actors and development 
actors moving together.
    So multilateral approaches combined with bilateral aid is 
going to be ultimately essential.
    Whatever the political approach is determined to move South 
Sudan from point A to point B, eventually we will have to cross 
the bridge of meaningful work with them on the humanitarian and 
development space. And the Security Council together with 
coordination mechanisms that are effective between the 
bilateral donors have enormous potential to make sure the money 
is effectively spent and done in a transparent way and, most 
importantly, actually have measurable results over a long 
period of time.
    At the moment, we don't have that for South Sudan because 
we are in a humanitarian phase where, at the moment, we are 
just trying to keep people alive.
    But over 5 to 10 years, if we can find a political 
settlement, these types of coordination mechanisms on bilateral 
aid together with multilateral approaches have great potential 
to move the needle.
    Ms. Knopf. I have spent a fair bit of time thinking about 
this, having worked very closely with Senator Danforth, with 
all of our envoys during the last administration, and being on 
the ground myself as the AID director and as the U.S. 
representative on the Assessment and Evaluation Commission in 
the early years of the CPA implementation.
    A couple of things. One, I think it was an incredible 
victory for the South Sudanese people that the longest running 
civil war in Africa ended, and that was the war between the 
north and south that cost more than 2 million lives, displaced 
more than 4 million people. It was a really tremendous thing to 
bring that to closure.
    There is a lot of second-guessing. Should we have supported 
self-determination? Isn't this worse? It is not worse. It is 
very bad. It is pretty terrible for the people of South Sudan, 
and it can still get worse. But they deserve the chance at 
self-determination, and they do not deserve to be held hostage 
now to the leadership that has misused this moment.
    So I think in reflecting on how we got from there to where 
we are now, we did miss some things along the way in terms of 
the United States and the international support. We missed that 
there needed to be a glide path after independence to full 
statehood.
    The Chairman. And that seems to be a problem we continue to 
repeat over and over again. Is that not correct?
    Ms. Knopf. I think in other places, we have done it. That 
is why there are some precedents for the international 
transitional administration. We have done it in whole and in 
part. We did it differently in Liberia. We did it differently 
in Namibia. We did it differently in East Timor. We did it 
differently in Kosovo. We did it differently in Bosnia.
    Each circumstance does have its own peculiarities and own 
solutions, and there are problems and challenges with each of 
them. But that shouldn't stop us from trying something that is 
more effective for the people of South Sudan now going forward.
    And we did miss that for South Sudan. We focused during 6 
years of an interim period on getting to a referendum and 
seeing if that would really come to pass. It was not a sure 
thing. It was not a sure thing when the CPA was signed in 2005.
    So much of that 6-year interim period was spent on the 
critical benchmarks of the CPA that would get us to the 
referendum and then get to the actual independence of the 
country. It was a divorce agreement between the north and the 
south. It was not focused on a social contract in South Sudan 
itself on what is the relationship between the state and its 
citizens.
    And it missed the point that Jok made at the beginning of 
his testimony about the liberation struggle and leadership 
coming out of that, and a lot of resources on the table very 
quickly. And with no history of governance and institutions to 
put the checks and balances in place to constrain the impulse 
to use those resources for other ends, that is where we are 
today.
    The Chairman. The Sudanese view?
    Dr. Kuol. Let me focus on the U.S. because I have been in 
the peace agreement with CPA, how it was negotiated. We did 
some work with the NDI, the National Democratic Institute, a 
focus group discussion to see the feeling of people toward the 
people of the U.S. and the others.
    To tell you the truth, it has been a consistent feeling of 
the people of South Sudan how they really have a very strong 
feeling toward the people of the United States.
    It was reflected very well, especially President Bush had 
shown a personal attachment to the people of South Sudan. At 
that level, I think we reached the people of South Sudan. And 
it is still remaining in the minds of people.
    That is why it is very important for us to know how people 
of South Sudan feel toward the people of the United States. 
That could imply also the foreign policy, as to what level it 
reaches the heart of the people of South Sudan.
    The second thing we did some work on the evaluation of 
Operation Lifeline in Sudan.
    Operation Lifeline was the one managed during the war. This 
Operation Lifeline Sudan, to a certain degree, contributed a 
lot. The international community showed solidarity with the 
people South Sudan. And even the independence of South Sudan, I 
could say U.S. Government played a very important role.
    What we missed is this issue assumed having an independent 
country, everything would be smooth. We did not dig inside into 
the dynamics of how South Sudan would govern itself. Maybe the 
perception was in such a way, these are the people--indeed, the 
people of South Sudan, they show a civility when they conducted 
their referendum. These are great people that are misled by 
their leaders.
    That is why some of us have been saying, as part of the 
whole thing, that Africa, what they need is the liberation of 
the liberator because you need to liberate Africa from the 
liberators themselves because the liberators, when they come 
in, it is called the liberation curse.
    This is something I think we miss in the process, if we 
ourselves in the government miss that point.
    The Chairman. Do you want to close us out, Dr. Jok?
    Maybe not. I don't know. Senator Flake and Senator Markey 
may have questions. But go ahead.
    Dr. Jok. I think one additional observation from what has 
been said, and that is the focus was very strong on building 
the institutions of South Sudan, building the state. Much of 
the U.N. aid has gone to building the state, building the 
institutions, so that the state is strong enough to be able to 
turn around and offer services to its people.
    What was missed was that--that state-building was a 
vertical process. What was missed what might be called a 
horizontal nation-building process so that the people of South 
Sudan develop more affinity with their nation rather than with 
their ethnic groups.
    So have people who have not graduated from their 
citizenship in their tribes into citizenship in the nation. And 
that was something that could have been done. The U.S. could 
have had a two-step project of state-building and nation-
building, so that people have expressed loyalty to their state, 
to their country, rather than to various ethnicities.
    The other, of course, is accountability for U.S. money in 
South Sudan. We could have kept track of what the money has 
produced for South Sudanese, something tangible to be shown. 
Like now the road from Juba to Nimule is the one big visible 
thing that has been done.
    So a lot of U.S. money has been wasted in giving contracts 
to subcontractors, and a lot of that money has very little to 
show that is tangible. I think there could have been a way for 
the U.S. to be able to say $11 billion in 10 years, this is 
what we have shown for it, this is what we can show for it, 
this is what was wasted. So that there is accountability both 
within the administration of USAID as well as the Government of 
South Sudan.
    The Chairman. Senator Flake?
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman.
    Dr. Jok, can you talk a little bit about climate change, 
deforestation, famine in South Sudan? Can you talk a little bit 
about that and what that impact is on the people but also on 
the ability to resolve the conflict?
    Dr. Jok. Thank you, sir.
    There is definite evidence of degradation of the 
environment. It is very noticeable that the rain pattern has 
changed. You might still get the same amount of rain, but it is 
concentrated and not as spread throughout the year as it used 
to be.
    When I was a herd boy, I knew some of the plants that grew 
on my grazing terrain. Those plants are no longer there, so 
there is clear evidence that population movements, displacement 
of people, and new agricultural programs, extensive slash-and-
burn agriculture, and the increase in the number of cattle, 
have definitely had a major impact on the environment.
    Senator Markey. So what can international partners do in 
order to ensure there is protection of the natural resources 
within South Sudan? Is there any role for the international 
partners on that issue?
    Dr. Jok. Certainly, there is a role, especially on the 
extractive industries to be made more responsible in terms of 
how they extract oil particularly. The oil areas have been 
devastated by oil production.
    Senator Markey. By deforestation?
    Dr. Jok. No, the oil production itself has polluted the 
area.
    Senator Markey. Yes.
    Dr. Jok. So in that area, there are things that the 
international community can do to ensure that the oil companies 
are doing it responsibly.
    Deforestation is also a function of livelihoods changing.
    Senator Markey. Which international companies are in South 
Sudan and not protecting the environment while they drill for 
oil?
    Dr. Jok. At the moment, it is all Asian companies. You have 
the Chinese CNPC, and you have Malaysian companies, and you 
have Indian companies.
    Senator Markey. So should we be attempting to put pressure 
on the Chinese companies, the Chinese oil companies, to act in 
a more responsible fashion?
    Dr. Jok. Yes, there our processes in place already. There 
is a Natural Resources Management Act in place in South Sudan, 
which could be supported to ensure that oil companies do what 
they say they are going to do.
    Those can be supported so they are implemented. At the 
moment, you pass legislation and make it into law, but it does 
not get implemented for whatever reasons. That is the problem.
    So I think working together with the government, with the 
oil companies to ensure that the legislation that has been 
passed have been implemented would be the way to go.
    Senator Markey. Okay, is South Sudan close to a widespread 
famine? Is there a risk that that could break out?
    Ms. Knopf. Yes. Yes, it is. It is very close. Forty percent 
of the population is already at a severe level of food 
insecurity from the way that food insecurity is classified and 
studied by technical experts, that is considered. A large part 
of the country is at what they call a Level 4. Level 5 is 
famine. There are already pockets of famine of Level 5 food 
insecurity in South Sudan, including in Northern Bahr el 
Ghazal, which notably is the home area of the chief of general 
staff of the Army. So even in his home area, people can't eat 
and they are fleeing north to Darfur, as you pointed out in 
your opening statement.
    In fact, we don't fully know the level and extent of the 
crisis because the government blocks access and the government 
blocks some of the data from being released to appreciate the 
severity of the crisis.
    Senator Markey. Well, just 2 months ago, it is reported 
that government soldiers looted the World Food Program's main 
warehouse in Juba and just took all the food that was there. 
Tell us what that says about the government, what it says about 
the situation there, and how the government itself was 
exacerbating the famine, the hunger, amongst its own people.
    Mr. Yeo. Indeed, that is correct. The World Food Program 
warehouse was raided. The food was taken. As a result, there 
was insufficient food to feed the civilians inside the 
Protection of Civilians sites that are being run by the United 
Nations and are protecting in Juba alone 35,000 civilians.
    Women actually had to leave the sites to get food for their 
families because of what happened with the government taking 
the food. And in fact, it is a statement that the government is 
solely interested in making sure that its troops are fully fed 
and that, in fact, the civilians who depend upon the World Food 
Program are not receiving the assistance they should be 
providing.
    And it is more than just stealing the food out of the 
warehouse. In fact, they erect barriers throughout the country 
that make it difficult at times for the World Food Program to 
not only deliver the food that it wishes to deliver, but to 
monitor the delivery in a way that it should be monitored.
    So it is a very difficult and challenging situation for 
humanitarians, including the World Food Program, which 
continues, despite these challenges, to do their best to try to 
deliver food to up to 40 percent of the population in the 
entire country.
    Senator Markey. Well, that is incredible. Thank you.
    Thank you all for everything that you are doing.
    The Chairman. Thank you.
    My staff was sharing with me that enough food was taken to 
feed 250,000 people for 3 months. You say 1 month, a period of 
time.
    So listen, thank you all for being here and discussing this 
harrowing topic with us. We appreciate it. And the record will 
remain open until the close of business Friday. If you would 
fairly promptly answer questions that will come to you, we 
would appreciate it.
    The Chairman. Again, thank you for your testimony and for 
your interest in this issue.
    With that, the meeting is adjourned.
    [Whereupon, at 4:26 p.m., the hearing was adjourned.]

              Additional Material Submitted for the Record

 Material Submitted for the Record by Dr. Paul R. Williams, Rebecca I. 
    Grazier Professor of Law and International Relations, American 
                     University, Washington, DC \1\

                              introduction
    Given the ongoing conflict and perceived state failure in South 
Sudan, experts and members of the international community have proposed 
the establishment of an international trusteeship in South Sudan. 
Princeton Lyman, former American Special Envoy for Sudan and South 
Sudan, recommended that the United Nations (U.N.) and the African Union 
(A.U.) establish and administer an executive mandate over South 
Sudan.\2\ Hank Cohen, the former Assistant Secretary of State for 
Africa, has similarly called for the ``intensive U.N. tutelage'' of 
South Sudan until it is prepared for self-governance.\3\ Additionally, 
the former Secretary-General of the Sudan People's Liberation Movement, 
Pagan Amum, has advocated for a direct intervention from the 
international community to prevent South Sudan from ``collapsing.'' \4\ 
In light of these recommendations, this paper examines the history of 
U.N. trusteeships, provides an overview of neo-trusteeship approaches, 
and examines the feasibility of and core considerations in creating 
such a mechanism in South Sudan.
    Although different terms have been used, the current calls for an 
international administration in South Sudan amount to the establishment 
of a neo-trusteeship. A neo-trusteeship is a governing arrangement that 
involves the transfer of some or all sovereign powers to a trustee with 
the goal of creating institutions capable of administering the state 
and providing services to citizens. At the end of the trusteeship, 
powers are returned to the state. Neo-trusteeships have been utilized 
in a number of post-conflict and transitional settings in the past 25 
years, including in Bosnia and Herzegovina (Bosnia), Kosovo, East 
Timor, Cambodia, Iraq, and Afghanistan. These contemporary examples 
provide insight into best (and sometimes worst) practices in 
establishing and implementing neo-trusteeships. In general, neo-
trusteeships are more effective when the trustee is provided sufficient 
power to effectively govern the state, when clear benchmarks are 
established for the return of powers to the state, and when a robust 
peacekeeping presence is authorized to establish conditions conducive 
to institutional development.
    A neo-trusteeship could be introduced in South Sudan in three ways: 
(1) by a U.N. Security Council Resolution under Chapter VII of the U.N. 
Charter; (2) by negotiating a neo-trusteeship as part of the peace 
process; (3) or as a complementary effort to a regional peacekeeping 
force. Establishing a neo-trusteeship in South Sudan requires full and 
thorough consideration of the conditions necessary to promote 
government support for the establishment of a neo-trusteeship, the 
resources required to establish a secure environment in which 
institutions can be developed, the powers necessary for the trustee to 
effectively develop these institutions, and the strategy for the return 
of powers to local officials.
                    the history of u.n. trusteeships
    Neo-trusteeships are the contemporary iteration of the U.N. 
Trusteeship Council system. The U.N. Trusteeship Council was created in 
1945 to facilitate the transitions of post-colonial territories to 
self-rule.\5\ The creation of the U.N. Trusteeship Council was rooted 
in the desire to further international peace and security; promote 
economic, social, and political advancement; and enhance respect for 
human rights.\6\ The Council focused on ensuring that ``there [was] a 
peaceful and orderly means of achieving the difficult transition from 
backward and subject status to self-government or independence, to 
political and economic self-reliance.'' \7\In this system, a trustee 
exercised sovereignty over a territory for a limited period of time for 
the ultimate benefit of the population of that territory.\8\ Under 
Article 77 of the U.N. Charter, the U.N. Trusteeship Council was 
empowered to create a trusteeship when: (1) a colonial state 
voluntarily relinquished its control over a territory; (2) a territory 
was already under a League of Nations' mandate; or (3) a territory was 
taken from a state defeated during World War II.\9\ Following the 
closure of its final trusteeship in Palau in 1994, the U.N. Trusteeship 
Council ceased all activity and remains inactive today.\10\
    Although the era of the U.N. Trusteeship Council has come to a 
close, the international community continues to utilize a variety of 
contemporary manifestations of that trusteeship system, which fall 
broadly under the category of ``neo-trusteeships.'' In contrast to the 
uniform approach developed under the U.N. Trusteeship system, no formal 
framework or practice exists for these modern approaches, which are 
generally developed ad hoc.\11\
    While neo-trusteeships continue to be a method used to create 
functioning political institutions and to establish the conditions 
necessary for peace and security, these modern approaches can be highly 
controversial, particularly given the varying degrees of success 
experienced. Amid this debate, this paper does not address the validity 
of neo-trusteeships as a general approach. Rather, this paper is 
focused on providing an overview of how neo-trusteeships operate, while 
identifying the factors that have contributed and hampered the ability 
of neo-trusteeships to achieve their goals.
               contemporary examples of neo-trusteeships
    Neo-trusteeships are typically designed with the intent to support 
the development of democratic institutions based on the unique context 
in each state. This has resulted in considerable diversity in their 
form and structures. As policymakers consider how a potential neo-
trusteeship could be structured in South Sudan, lessons can be drawn 
from the experiences of previous neo-trusteeships as described in this 
section.
Bosnia & Herzegovina
    The Dayton Peace Agreement, which ended the conflict between 
Bosniaks, Serbs, and Croats in Bosnia & Herzegovina in 1995, 
established a neo-trusteeship administered by an internationally-
appointed High Representative. The High Representative was authorized 
to oversee and coordinate the efforts of parties working to implement 
the peace agreement, provide technical assistance to Bosnian efforts to 
implement the agreement, and resolve disputes among the parties over 
implementation.\12\ Peacekeeping support was first provided by the 
NATO-led International Force (IFOR) and subsequently by the 
Stabilization Force (SFOR). Following several years of limited 
implementation of the peace agreement, the High Representative 
reinterpreted its powers to play a more direct role in Bosnian 
governance and to further Bosnia's development.\13\ The result was a 
broad neo-trusteeship that maintained significant sovereign powers, 
including promulgation of laws and removal of officials. These 
increased powers allowed the High Representative to overcome several 
major political roadblocks in post-conflict governance in Bosnia, but 
have had limited effect in pressuring Bosnian authorities to fully 
implement key components of the Dayton Peace Accords, including the 
passage of a new constitution. The Bosnian neo-trusteeship has operated 
largely without benchmarks for evaluating Bosnia's progress in assuming 
governance powers and determining when the neo-trusteeship would end, 
leading to significant criticism from domestic and international 
observers.
Kosovo
    The United Nations Mission in Kosovo (UNMIK) was established by the 
U.N. Security Council in 1999 following a military intervention by the 
North Atlantic Treaty Organization (NATO) to halt ethnic cleansing of 
Albanians by Serbian militias and the Yugoslav National Army in 
Kosovo.\14\ At the time UNMIK was established, Kosovo was an autonomous 
province within Serbia. The goal of the neo-trusteeship was to restore 
order and provide its citizens with institutions capable of self-
government and autonomous rule pending a political settlement to the 
conflict. The NATO-led Kosovo Force (KFOR) provided peace keeping 
support. The foundational document of UNMIK provided for an interim 
international administration of Kosovo until the status of Kosovo was 
determined and self-governing institutions were established.\15\ The 
transfer of power to Kosovo institutions was not subject to a defined 
timeline, but rather was subject to the fulfillment of certain 
conditions.\16\ Kosovo is frequently recognized as one of the most 
effective instances of a political trusteeship.\17\ It received strong 
support from the majority Albanian population of Kosovo, which 
bolstering its legitimacy and increased the capacity for dialogue among 
the parties to the conflict.\18\
East Timor
    A neo-trusteeship in East Timor was installed following the 
outbreak of armed conflict after voters resoundingly supported a 
referendum on independence from Indonesia. Australian-led peacekeeping 
troops of the International Force of East Timor (INTERFET) ended the 
violence and restored basic law and order to the state. The U.N. 
Transitional Administration in East Timor (UNTAET) was subsequently 
established through a U.N. Security Council resolution with the consent 
of Indonesian officials. There was no formal consent from East Timorese 
leaders who were under the governing authority of Indonesia. However, 
high voter turnout and support for independence in the referendum 
indicated that most East Timorese supported U.N. involvement.\19\ The 
purpose of UNTAET was to act as an ``integrated, multidimensional 
peacekeeping operation fully responsible for the administration of East 
Timor during its transition to independence.'' \20\ To achieve this 
purpose, UNTAET was given a relatively extensive mandate, which 
included both political administration and peacekeeping.\21\ Under 
UNTAET's supervision, local institutions were developed in East Timor, 
including an elected Constituent Assembly, Council of Ministers, and 
President.\22\ UNTAET exercised this UNSC-mandated authority until East 
Timor's independence in May 2002. Similar to Kosovo, the intervention 
in East Timor was largely considered a success by the international 
community.\23\ The powers granted to UNTAET exceeded those granted to 
many other neo-trusteeships, which provided UNTAET considerable 
authority in fulfilling its mandate and developing institutions. UNTAET 
has been criticized, however, for its significant international 
presence, which is thought to have limited its efforts to build the 
capacity of local officials.
Cambodia
    The United Nations Transitional Authority in Cambodia (UNTAC) 
implemented the neo-trusteeship in Cambodia. Following the conflict in 
Cambodia and the subsequent peace settlement, the primary goal of UNTAC 
was to assume internal administration of the country during its 
transition to an elected government to create the conditions in which 
peaceful national elections could be conducted.\24\ UNTAC's 
institution-strengthening efforts included managing foreign affairs, 
defense, security, finance, and communications.\25\ In addition, UNTAC-
supervised elections resulted in a widely supported government. 
Although UNTAC's mandate was far smaller than the robust mandates of 
UNMIK and UNTAET, its efforts have largely been deemed successful.\26\ 
Cambodia's post-conflict elections were conducted peacefully, and the 
government that resulted from the elections assumed power over a 
relatively stable, functioning state.
Iraq and Afghanistan
    Neo-trusteeships have been used to facilitate the development of 
democratic governments in Afghanistan and Iraq following the removal 
from power of the Taliban and the regime of Saddam Hussein by U.S.-led 
military coalitions. In Afghanistan, the Bonn Agreement outlined the 
role of the United Nations Special Representative of the Secretary 
General in the Afghani administration, which included: ``monitor[ing] 
and assist[ing] in the implementation of all aspects of [the Bonn] 
agreement''; ``advis[ing] the Interim Authority in establishing a 
politically neutral environment conducive to the holding of the 
Emergency Loya Jirga in free and fair conditions''; attending the 
meetings of transitional authorities; facilitating the resolution of 
disputes or disagreement among transitional authorities; and 
investigating human rights violations and recommending corrective 
actions.\27\ The U.N. was supported by a NATO-led International 
Security Force (ISAF), whose mandate was to maintain security in Kabul 
and in surrounding regions, while also supporting the free movement of 
U.N. personnel and the implementation of the Bonn Agreement.\28\
    In Iraq, the U.S. established the Coalition Provisional Authority 
in 2003 to administer the state. Through Coalition Provisional 
Authority Regulation 1, the Authority enumerated its mandate, which 
include restoring security to the state and facilitating conditions 
appropriate for the Iraqi people to govern the state through Iraqi-led 
institutions.\29\ To do so, the Authority assumed full executive, 
legislative, and judicial authority over the state. Coalition forces 
also assumed the power to restore security of the state and assist in 
carrying out the policies of the Authority.\30\ As the Authority handed 
off power to local institutions, the U.N. assumed many of its roles in 
supporting the development of Iraqi institutions through the United 
Nations Assistance Mission for Iraq.
    Afghanistan and Iraq are complicated instances of neo-trusteeships. 
Both required a heavy military component to establish the neo-
trusteeship and to maintain an environment that enabled the neo-
trusteeship to effectively operate, particularly in Iraq where the neo-
trusteeship has been plagued with security complications.\31\ 
Nonetheless, these instances of neo-trusteeships provide valuable 
insight into the challenges that emerge in administrating a neo-
trusteeship when an extensive and sustained military force is required.
                     elements of a neo-trusteeship
    While there is great diversity in the goals, structure, and powers 
of neo-trusteeships, several common elements exist among them. These 
include: (1) the need for a legal basis establishing the neo-
trusteeship; (2) selection of the trustee; (3) powers granted to the 
trustee; (4) accountability mechanisms for the trustee; and (5) a 
process for terminating the trusteeship and returning powers to the 
host state.
Legal Basis for Neo-Trusteeships
    Neo-trusteeships have been established through peace agreements, 
declarations, and U.N. Security Council Resolutions. Regardless of the 
legal basis, neo-trusteeships typically receive recognition, if not 
authorization, from the U.N. Security Council. In Bosnia and 
Afghanistan, for instance, the neo-trusteeship was formalized and 
received the consent of state leaders through peace agreements that 
established the structure of each state's transitional administration. 
These agreements subsequently received support from the U.N. Security 
Council through Security Council Resolutions providing peacekeeping 
support through member-led military coalitions.
    The neo-trusteeship in Iraq was imposed through a declaration 
following the removal of the regime of Saddam Hussein. When General 
Franks, as Commander of the Coalition Forces, declared Iraq's 
liberation, he announced the creation of the Coalition Provisional 
Authority (CPA). The CPA served, in effect, as the acting government 
pending the Iraqi people's creation of a new government. General Franks 
was the initial head of the CPA.\32\ While the legal framework under 
which the CPA was initially created is unclear, the declaration that 
established the CPA was subsequently recognized by U.N. Security 
Council Resolution 1483.\33\ Based on the declaration and Resolution 
1483, the U.S.-led CPA issued CPA Regulation 1, which established its 
powers to administer Iraq.\34\
    Neo-trusteeships authorized by the U.N. Security Council Resolution 
have been used to overcome impasses in political negotiations or when 
the infrastructure of the state has been destroyed by the conflict. In 
Cambodia, for instance, UNTAC was established by U.N. Security Council 
Resolution 745 in agreement with Cambodian officials as a compromise 
after negotiations on interim power-sharing arrangements failed.\35\ 
Similarly, in Kosovo, UNMIK was established through Security Council 
Resolution 1244 to put an end to the ethnic cleansing in Kosovo and to 
allow political negotiations between the warring parties to 
continue.\36\ In East Timor, UNTAET was established by U.N. Security 
Council Resolution to address the critical need to restore East Timor's 
institutional infrastructure in the aftermath of the conflict. Basic 
rule of law was restored by INTERFET, which subsequently handed off its 
operations to UNTAET.\37\
Selection of the Trustee
    The selection of the trustee is critical to the success of the neo-
trusteeship. To effectively fulfill the trustee's mandate, the trustee 
must build and maintain the confidence of the local population in its 
authority, decision-making processes, and long-term vision for building 
the state. If the trustee does not have the confidence of the local 
population, the trustee's decisions are less likely to receive public 
support, which may negatively impact the trustee's efforts.
    Most neo-trusteeships have been administered by a special 
representative appointed by the United Nations or an international 
coalition of states supporting the implementation of the trusteeship or 
peace agreement. In states where the trustee has played a positive role 
in ending the conflict or providing protection to civilians, the 
trustee has received support from the local population. For instance, 
when UNMIK assumed the administration of Kosovo, the intervention was 
welcomed by the public, who had a positive opinion of the U.N. as 
result of the U.N.'s role in halting the ethnic cleansing of Kosovar 
Albanians. This public trust increased the public's respect for UNMIK's 
decisions among Kosovo's majority Albanian population.
    Similarly, the identity of the trustee can be critical to the 
effectiveness of a neo-trusteeship. For instance, part of the success 
of UNTAC is attributed to its administrator, Yasushi Akashi, a Japanese 
diplomat. As a regional actor and diplomat, he understood the cultural 
norms and how best to pursue consensus among the parties. At the same 
time, he did not hesitate to push back on the political actors and the 
U.N. when needed.\38\ Based in part on the administrator's popularity, 
UNTAC was able to forge an alliance with the Cambodian people that 
enabled it to ``overcome the intrigues of their faction leaders and 
deliver an opportunity to them to break free from the prolonged cycle 
of fear and coercion.''
Powers Granted to the Neo-Trusteeship
    While state practice varies in the scope of powers granted to the 
trustee, two models emerge: (1) neo-trusteeships in which complete 
sovereignty is transferred to the trustee; and (2) neo-trusteeships in 
which only certain powers are transferred to the trustee. In the second 
model, sovereignty is retained by local institutions, rather than by 
the trustee. The invitation for assistance may be revoked at any time, 
and the sovereign is empowered to transfer either part or all of its 
sovereign powers to another actor. These powers may be transferred 
either for a set period of time or until certain conditions exist.\40\
    These two models have been blended in recent trusteeships, and the 
results of these blended frameworks have been mixed.\41\ These mixed 
results have led some analysts to conclude that in cases where 
substantial intervention is necessary, the neo-trusteeship's 
effectiveness may be enhanced by placing full sovereignty clearly with 
the trustee for a temporary period of time.\42\ For instance, UNMIK's 
mandate provides for full authority over ``basic civilian 
administrative functions where and as long as required.'' \43\ 
Similarly, UNTAC is judged to be most effective in the areas where it 
had the greatest degree of independence and control.\44\
    Even when broad powers are granted to the neo-trusteeship, however, 
the administration can benefit from explicit limitations on its power. 
For instance, UNTAET was ``endowed with overall responsibility for the 
administration of East Timor and [was] empowered to exercise all 
legislative and executive authority, including the administration of 
justice.'' \45\ UNTAET's authority was extensive, exceeding that of 
other neo-trusteeships, including UNMIK.\46\ While its far-reaching 
powers allowed UNTAET to promote conditions conducive to East Timor's 
political development, the extent of these powers also led to suspicion 
of the U.N.'s motives. Although the public was initially supportive of 
the intervention, the lack of clarity regarding the limitations of the 
U.N.'s authority under international law, the U.N.'s obligations to 
respect human rights, and the conditions upon which the trusteeship 
would terminate resulted in significant domestic and international 
criticism of the trusteeship.\47\
    Neo-trusteeships can assume a range of powers depending on their 
mandate and the scope of their powers. These powers can range from 
observation, technical advice, and dispute resolution to more robust 
powers such as institution building, promulgating legislation, and 
removing officials. More robust powers provide the trustee with more 
control over the day-to-day administration of the state.
            Monitoring Implementation of Peace Agreements
    A neo-trusteeship can be empowered to oversee and monitor the 
implementation of political aspects of peace agreements. For instance, 
in Bosnia, the High Representative was initially vested with the powers 
to oversee implementation of the civilian aspects of the Dayton Peace 
Agreement. These powers included promoting the parties' compliance with 
the terms of the agreement, coordinating the activities of Bosnia 
institutions to promote the implementation of the agreement while 
respecting their autonomy, and facilitating ``the resolution of any 
difficulties arising in connection with civil implementation'' of the 
agreement.\48\
            Providing Technical Advice and Assistance
    Neo-trusteeships may also be empowered to provide technical 
assistance to local authorities in the implementation of the peace 
agreement or in day-to-day governance. For instance, the Bonn Agreement 
provided that the Special Representative of the Secretary General would 
advise Afghan transitional authorities in promoting an environment 
conducive to effective decision making and facilitating disputes that 
arose among them. Similarly, the High Representative in Bosnia was 
mandated to advise officials on how best to implement the Dayton Peace 
Agreement and to resolve disputes arising among officials.
            Creating Institutions and Promoting Democracy
    In situations where the state's infrastructure has been largely 
destroyed by the conflict, the neo-trusteeship may also support the 
creation of institutions of democratic governance. For instance, in 
East Timor, the U.N. trusteeship developed local institutions, 
including an elected Constituent Assembly, Council of Ministers, and 
President.\49\ Similarly, UNMIK was mandated to provide an interim 
administration for Kosovo while ``establishing and overseeing the 
development of provisional democratic self-governing institutions to 
ensure conditions for peaceful and normal life for all inhabitants of 
Kosovo.'' 
    In addition, the trusteeship is often simultaneously responsible 
for promoting democracy through initiatives such as long-term mentoring 
programs to rebuild civil society and institutional capacity-building 
measures.\51\ Particularly in host states that were previously under 
repressive regimes that stifled civil society, these parallel efforts 
are essential in ensuring a functioning democracy.
    State practice indicates that neo-trusteeships are most effective 
in installing democratic institutions when there is a coordinated, 
actionable, and timely plan for instituting reforms. Swift, 
coordinated, and transparent action decreases the likelihood that 
criminal elements or remnants of the previous regime will influence the 
new system, thereby hindering the development of institutions. For 
instance, UNTAC in Cambodia is frequently criticized for acting too 
slowly in assuming control and implementing necessary reforms in key 
areas of civil administration.\52\ These delays in implementation left 
UNTAC unable to deal with corruption and the intimidation by political 
figures.\53\ Further, UNTAC's administration did not fully consider or 
address institutions at the provincial level. As a result, UNTAC 
struggled to provide oversight to sub-national institutions where 
provincial governors and civil servants proved to be ``very 
independent-minded.'' \54\
            Conducting Democratic Elections
    Conducting elections is often an important power of the neo-
trusteeship, as it represents the reconstitution of a local government 
in the wake of a conflict. For that reason, it is often one of the 
final duties of the trustee. For instance, elections were the 
cornerstone of the neo-trusteeship in Cambodia.\55\ UNTAC was 
established for an 18-month period, and it needed to complete elections 
and transfer power to the newly elected government before the end of 
that period.\56\ In May 1993, almost the exact date provided for in its 
initial timetable,\57\ UNTAC supervised Cambodian national elections. 
Over 4.2 million Cambodians (90% of those registered) participated in 
the UNTAC-supervised elections that were declared to be free and 
fair.\58\
            Incubating the Rule of Law
    The powers of several neo-trusteeships have included establishing 
and promoting rule of law in their mandates. This power is not often 
specifically outlined within the trustee's mandate, but is instead 
generally accepted to be a part of the creation of effective governance 
institutions. For instance, as part of their broader mandate to develop 
institutions of local self-governance, both UNTAET and UNMIK were 
charged with establishing institutions to uphold the rule of law, 
including judicial institutions, police, and prison services.\59\ 
Similarly, in Bosnia, following a failed attempt at judicial reform, 
the High Representative instituted a process of judicial vetting 
through which all sitting judges and prosecutors were asked to resign 
and reapply for their positions.\60\
            Exercising Legislative and Constitutional Authority
    A neo-trusteeship can be vested with broad legislative and 
constitutional powers, including the power to repeal and enact 
legislation. For instance, UNMIK's mandate provided for full authority 
to govern Kosovo, including the power to amend or repeal any previously 
existing laws that were not compatible with the mandate of UNMIK.\61\ 
Similarly, the reinterpreted powers of the High Representative in 
Bosnia permitted the High Representative to pass, repeal, or amend 
legislation. These powers have allowed the High Representative to 
overcome several significant political roadblocks in the implementation 
of the Dayton Peace Accords, including passing the Law on 
Citizenship.\62\ Following deadlock in the Bosnian Parliament, this law 
was signed into force by the High Representative.\63\ The neo-
trusteeship in Bosnia also annulled several existing laws, standardized 
Bosnian legislation with EU standards, and established the Bosnian 
state courts.\64\
            Removing Political Officials
    A neo-trusteeship may also be empowered to remove political 
officials and bar these individuals from seeking future office. 
Following the reinterpretation of the High Representative's mandate in 
Bosnia, the High Representative was provided with the ability to 
exercise power over legislative and executive functions, including the 
authority to remove local officials under certain circumstances.\65\ 
While these powers have been exercised on only a limited basis, they 
provide the High Representative considerable authority to address 
political spoilers.
            Implementing Economic Reforms
    Neo-trusteeship can also be empowered to undergo a range of 
economic reforms, including promoting economic reconstruction and 
development. For instance, UNTAC was responsible for the rehabilitation 
of Cambodia's essential infrastructure and the commencement of economic 
reconstruction and development. However, UNTAC initially paid little 
attention to the economy or the financial impact of its mission on the 
country, which lead to high inflation rates.\66\ Amid a serious budget 
deficit, UNTAC belatedly committed to careful monitoring and handling 
of the economic situation and appointed an Economic Adviser.\67\ 
Despite this initial hurdle, UNTAC jumpstarted the reconstruction and 
rehabilitation of Cambodia's infrastructure, approving 51 development 
projects during its tenure.\68\
Accountability Mechanisms
    Even when the trustee is granted full sovereignty over the state, 
the trustee is a fiduciary that is accountable to the population of the 
host state.\69\ When exercising its powers, the trustee must therefore 
be able to justify any changes that it makes to preexisting laws and 
institutions as benefitting the population.\70\ Judicial review and 
internal complaint systems are mechanisms that can ensure the 
accountability of a neo-trusteeship.\71\ The trusteeship in Kosovo 
established an internal complaint and accountability mechanism designed 
to provide transparency and accountability to Kosovo citizens. To 
support the implementation of the UNMIK mandate, UNMIK established a 
Human Rights Advisory Panel to consider complaints from Kosovo citizens 
related to alleged human rights violations committed by UNMIK.\72\
Termination of the Trusteeship
    A clearly defined exit strategy promotes the likelihood of a 
successful neo-trusteeship and stronger relationships between the 
trustee and the host state. An exit strategy may be delineated in the 
initial trusteeship agreement, which may specify a finite period of 
time for the neo-trusteeship. This finite period may promote confidence 
in the host state population that the neo-trusteeship will end, and 
that power will be handed to host state officials. However, to be 
effective, such a time period must be reasonable to accomplish the 
goals of the trusteeship. If the time period is too short, the neo-
trusteeship may not bring about the desired result--a sustainable, 
self-governing host state. Alternatively, the initial trusteeship 
agreement may establish a series of benchmarks that must be attained 
before the trusteeship ends and power is handed over to host state 
officials.\73\ Such a model may permit the trusteeship to continue if 
the state is not prepared for self-governance when the trusteeship is 
anticipated to end. However, state officials may be less likely to 
agree to an arrangement that does not have a pre-determined end date 
out of concern that powers may never be handed over.
    For instance, the neo-trusteeship in Bosnia has operated largely 
without benchmarks for evaluating Bosnia's progress in assuming 
governance powers and determining when the neo-trusteeship would end. 
The Dayton Peace Agreement provided no end date for the High 
Representative's term and listed no benchmarks for handing powers over 
to Bosnian officials.\74\ As the neo-trusteeship continues into its 21 
year, and progress toward full implementation of the Agreement and EU 
membership for Bosnia has been limited, both domestic and international 
observers have criticized the High Representative as lacking an 
effective exit strategy.
    Exit benchmarks can address political development, economic 
development, and security infrastructure development.\75\ Political 
benchmarks that may be used to assess the appropriateness of 
transferring sovereignty back to the host state include:

          The existence of political parties capable of competing with 
        each other; demonstrated capacity to hold peaceful and fair 
        elections; demonstrated capacity of political institutions, 
        such as an executive, ministries, and an assembly, to make 
        decisions and carry them out; the existence of a rule of law, 
        including functioning courts, reasonable access to those 
        courts, reasonable promptness in making decisions, and the 
        capacity to decide controversies that might paralyze the 
        government or impair its implementation of decisions consistent 
        with basic individual rights in private arrangements; and 
        demonstrated capacity of institutions of a civil society, 
        including a free press, universities, and voluntary 
        associations and legal and accounting professions capable of 
        holding political actors accountable.\76\

    In addition, a number of economic indicators may serve as 
benchmarks for a transition of sovereignty back to the host state. 
These include the establishment of basic infrastructure such as 
transportation and telecommunications systems, the existence of dispute 
resolution mechanisms, the ability to channel investment funds into the 
state, and the development of a national business strategy.\77\ 
Finally, benchmarks for security are also necessary to ensure that the 
crimes perpetrated by former regimes do not reoccur and physical 
security is provided for all segments of the local population.\78\ 
These benchmarks may include the establishment of a police or security 
force trained to uphold the law and respect the rights of all citizens 
and the establishment of a functional and effective system of criminal 
justice that will provide accountability for crimes committed.
Peacekeeping Support
    To provide a stable environment where the trustee can create the 
foundation for democracy and related reforms, neo-trusteeships 
typically require a robust and sustained peacekeeping presence.\79\ 
Similar to the neo-trusteeship arrangement, a peacekeeping force can 
maintain a range of powers depending on the political and security 
context, from peacekeeping to policing to engaging combatants. This 
presence can be provided by the U.N. or by a regional organization such 
as NATO or the AU. For instance, UNTAET's mandate included both civil 
and peacekeeping authority. The secure environment created by the 
peacekeeping troops was central to UNTAET being able to achieve its 
goals, particularly given the extent of the destruction of East Timor's 
infrastructure resulting from the post-referendum violence.\80\ By 
contrast, NATO forces led the security presence in Kosovo.\81\ A 
multinational Kosovo Force (KFOR) entered Kosovo following a series of 
aerial bombardments that put an end to violence occurring in 1999. The 
50,000-strong force provided security to the Kosovar population of 
roughly 2 million inhabitants and created conditions that allowed UNMIK 
to be established on the ground.\82\ KFOR presence in Kosovo continues 
today, although its troop presence has significantly diminished, and it 
has delegated significant police and security powers to Kosovo 
authorities.\83\
    In the Democratic Republic of Congo (DRC), the U.N., in partnership 
with the AU, implemented an additional mechanism for addressing 
instability in the eastern DRC--the Force Intervention Brigade.\84\ The 
Force Intervention Brigade, which fell under the authority of the 
United Nations Organization Stabilization Mission in the Democratic 
Republic of Congo (MONUSCO), was mandated to work closely with the 
Congolese army to not only protect civilians, but also to directly 
address the security challenges facing the eastern DRC, including 
``neutralizing rebel groups.'' \85\ This is the first such initiative 
by a U.N. peacekeeping force, one that has been lauded by the members 
of the international community as reinvigorating the efforts of MONUSCO 
and the reputation of U.N. peacekeeping missions.\86\ In fulfilling 
this mandate, the Force Intervention Brigade worked collaboratively 
with the DRC army, which allowed the Force Intervention Brigade to 
fulfill a dual function of combatting rebel groups and strengthening 
the capacity of the DRC army.\87\ The DRC consented to this 
collaborative effort as part of its commitment to continued security 
sector reform.\88\
    The Force Intervention Brigade has been credited with making 
progress in returning key strategic towns to the control of the DRC 
government and disarming rebel groups such as M23.\89\ However, the 
expanded mandate of the Force Intervention Brigade was not universally 
welcomed by U.N. member states and humanitarian organizations, who 
expressed concern that the increased mandate of U.N. peacekeeping 
troops would put their soldiers and employees at greater risk of being 
targeted by combatants.\90\
              common traits of successful neo-trusteeships
    Several common themes emerge when evaluating the conditions 
necessary for a successful neo-trusteeship. First, developing a full 
and thorough understanding of the needs of the host state is critical 
to ensuring that the neo-trusteeship has the full mandate and 
supporting powers to administer the state. As the instance of Bosnia 
demonstrates, if the trustee lacks the mandate to support institutional 
development in a state where institutions are weak and the political 
will of officials to reform them is low, the neo-trusteeship is 
unlikely to make significant progress in strengthening the state. 
Second, the selection of a trustee should be conducted with due regard 
for public opinion concerning both the implementing organization and 
its leadership. If public confidence in the trustee is low, then the 
trustee's work will become considerably more difficult. Third, the 
powers transferred to the trustee must be sufficient to allow the 
trustee to not only administer the state but also to overcome obstacles 
and challenges to institutional development. The neo-trusteeships in 
Kosovo and East Timor are typically considered to be successful because 
each maintained broad powers to govern the state and fulfill their 
mandate. Fourth, to gain the confidence of the local population and to 
administer the neo-trusteeship transparently, the trustee should 
consider its exit strategy and benchmarks for returning power to local 
authorities. UNTAC's success in Cambodia can be attributed to the clear 
benchmarks set for its success--which included a democratically elected 
government--and a measurable timeframe for returning power to the 
state. By contrast, the lack of measurable benchmarks and an exit 
strategy resulted in suspicion of the trustee's motives in East Timor 
and Bosnia. Fifth, transparent, accountable administration of the neo-
trusteeship can play a critical role in building public confidence in 
the trustee's work. In Kosovo, for instance, the Human Rights Advisory 
Panel provided accountability to UNMIK's work by allowing Kosovo 
citizens to challenge the trustee's decisions in administering the 
territory.
    Finally, state practice indicates that successful neo-trusteeships 
require an environment conducive to the creation of new institutions. 
Two key factors play into this: consent of local officials and the 
local population to the neo-trusteeship and the presence of a robust 
peacekeeping force. Consent of local officials to the neo-trusteeship 
promotes acceptance of the administration and supports a positive 
public perception of the trustee, facilitating the trustee's work and 
building public buy-in to the process. Further, almost every 
contemporary neo-trusteeship has been supported by a peacekeeping or 
stabilization force that establishes and maintains some basic rule of 
law. The mandate of this force may differ depending on the needs of the 
state, from peacekeeping to policing to engaging criminal elements, but 
should maintain sufficient powers to address obstacles arising from the 
neo-trusteeship and the stability of the state.
                     neo-trusteeship in south sudan
    Following a period of considerable political and economic 
instability, experts and members of the international community have 
called for the establishment of a neo-trusteeship in South Sudan, in 
one form or another. The current government of South Sudan has failed 
to develop institutions capable of providing effective services to 
citizens or of improving the state's economic situation. Further, 
infighting among South Sudanese officials has resulted in increasing 
violence, ongoing human rights violations, and a severe humanitarian 
disaster.
    The implementation of a neo-trusteeship in South Sudan could 
address these failures and fill the current governance gaps. At a 
minimum, the intervention of a peacekeeping force, such as the one 
called for by U.N. Security Council Resolution 2304, could provide the 
necessary stability to bring peace to the state and improve the 
economic situation.\91\ A neo-trusteeship could act where South Sudan 
is currently failing to perform, including creating a stable economy, 
establishing the rule of law, and building political institutions. As 
the capacity of South Sudanese institutions increases over time, these 
powers would be transferred back to the state.
    However, the establishment of a neo-trusteeship in South Sudan may 
also face significant challenges. South Sudanese government officials 
have strongly opposed any effort that might compromise their 
sovereignty, including the peacekeeping force provided for in Security 
Council Resolution 2304. Suspicion of U.N. motives in South Sudan may 
also limit public acceptance of a neo-trusteeship. In addition, South 
Sudan's fighting groups have increasingly splintered since Riek 
Machar's departure, and regional and local conflicts have continued 
unabated. Combined with limited infrastructure and difficult terrain, 
these dynamics would make establishing a secure environment outside of 
Juba difficult and highly costly. Endemic corruption and patronage 
systems within South Sudan would present further challenges in 
establishing the rule of law.
Developing the Framework for a Neo-Trusteeship in South Sudan
    In considering whether a neo-trusteeship would support the 
development of a successful South Sudan, policymakers may evaluate a 
number of core considerations in the implementation of such a 
mechanism, drawing on lessons learned from previous neo-trusteeship 
arrangements. Key considerations in developing a framework for how to 
structure a neo-trusteeship in South Sudan include:


    Process for establishing a neo-trusteeship:  The process for 
establishing a neo-trusteeship may determine the degree of legitimacy 
it receives from officials and members of the public. As discussed 
above, neo-trusteeships may be established by U.N. Security Council 
Resolution, with or without the consent of the host state, or through a 
negotiated agreement. A Security Council Resolution will establish a 
clear mandate for the neo-trusteeship, particularly if South Sudan 
gives its consent to the trusteeship. If the state does not consent to 
the trusteeship, however, the trustee may face difficulties, if not 
outright opposition, in assuming power. A negotiated agreement may 
provide more public legitimacy to the trusteeship as it requires the 
consent of the officials in power.

    Form of the neo-trusteeship: The form of the trusteeship is 
typically determined by the goal to be accomplished and the needs of 
the state. Trusteeships that provide the most power to the trustee are 
typically most effective in states where the governing infrastructure 
is limited or has been destroyed by the conflict, as was the case in 
Kosovo and East Timor. Trusteeships that serve a more advisory role are 
more effective in states where institutions exist, but have not fully 
developed the capacity to exercise their authority and would benefit 
from oversight and collaboration with the trustee. Both types of 
trusteeships may establish benchmarks and a timeframe for the 
incremental return of powers to the host state government.

    Powers delegated to the trustee: Along with consideration of the 
form of the neo-trusteeship, state practice indicates that careful 
consideration of the powers delegated to the trustee may be 
determinative of its success. Decision makers may consider whether a 
possible neo-trusteeship will be complete, providing all governance 
power (legislative and executive) to the trustee, or partial, splitting 
governance powers between the trustee and local institutions.\92\ A 
complete delegation of governance power may promote the smooth 
implementation of institutional reform or formation, as in East Timor. 
However, a complete delegation of governance power may be difficult to 
negotiate with a host state that holds some degree of sovereign power 
over its territory, as it will require sitting officials to transfer 
their authority to the trustee. In addition, policymakers may consider 
who would maintain the governance powers of sub-national institutions.

    Trustee: The trustee who assumes power over a neo-trusteeship in 
South Sudan will be of considerable importance to its legitimacy in the 
eyes of South Sudanese citizens. Public acceptance of the trustee is 
critical to allowing the trustee to fully and effectively assume power 
over the host state, as in Kosovo. If the trustee is seen by the public 
as biased or not able to act in the best interest of the state, then 
the neo-trusteeship is less likely to have the confidence of the 
public. At present, there is widespread suspicion of the U.N. in South 
Sudan--this may considerably affect the acceptance of a U.N.-led neo-
trusteeship.

    Relationship with local institutions: State practice indicates that 
neo-trusteeships are more effective when institutions are formed before 
local participation begins.\93\ As such, decision-makers may benefit 
from considering whether the installation and development of state 
institutions under the guidance of the neo-trusteeship will precede 
popular, local participation in decision-making.

    Oversight and accountability mechanism: Transparent oversight and 
accountability mechanisms can bolster the legitimacy and acceptance of 
a neo-trusteeship by providing a means of recourse for citizens when 
they feel their rights have been violated. These mechanisms may be 
similar to the Human Rights Advisory Panel established by UNMIK in 
Kosovo, which had the power to receive, investigate, and adjudicate 
citizen complaints against UNMIK.\95\ While the Joint Monitoring and 
Evaluation Commission (JMEC) already exists to oversee the 
implementation of the peace agreement in South Sudan, the mandate of 
JMEC would need to be expanded to undertake this function related to a 
neo-trusteeship. The JMEC may also continue to be impeded by the 
opposition it has experienced to date.

    Timeframe and process for returning powers to the state: Decision-
makers may also consider the timeframe and process for the eventual 
transfer of full governance power to local institutions,\96\ including 
whether this will be a gradual process and whether any specific 
benchmarks must be met to trigger the transfer of authority. The 
contemplation of including a mechanism for extending the timeframe or 
mandate of the neo-trusteeship may also be beneficial.

    Funding and available resources: Finally, decision makers must 
carefully consider whether there are resources available to support a 
neo-trusteeship prior to onboarding a new neo-trusteeship. In addition 
to ensuring that there is sufficient funding, a neo-trusteeship would 
also require a sustained commitment in terms of military support and 
additional resources.

Steps to Creating a Neo-Trusteeship in South Sudan
    In addition to developing a framework for a neo-trusteeship in 
South Sudan, there are several preparatory steps that could be taken to 
aid in the development of an effective neo-trusteeship. One of the most 
important preparatory steps is to undertake efforts to obtain support 
for such a mechanism. Regardless of the pathway used to create it, 
support from key players in South Sudan, including the political 
leadership, would be critical to the trusteeship's success. These 
individuals are likely to interpret the formation of a neo-trusteeship 
as a direct attack on South Sudanese nascent sovereignty or an 
admission that they have failed as leaders. Key political stakeholders, 
the majority of whom were directly involved in the liberation 
struggles, would need to be convinced that a trusteeship is 
appropriate. While a neo-trusteeship does not require the consent of 
political leaders, consent may make the implementation of a neo-
trusteeship less burdensome and costly for the intervening force. This 
may increase the political will among members of the international 
community to engage in the process.
    In addition to trying to gain the support of key political players, 
local support for the neo-trusteeship would need to be cultivated. The 
people of South Sudan are fatigued by the relentless cycle of violence, 
and there appears to be growing local support for an alternative, 
including a neo-trusteeship, but it is unclear how far such support 
would extend, particularly given the typically high political 
polarization of South Sudan's population and influential diaspora. 
While it is difficult to predict how readily the people of South Sudan 
would accept a neo-trusteeship, increased local support would 
strengthen its effectiveness.
    An additional prerequisite to creating a neo-trusteeship in South 
Sudan is sufficient planning and preparation to address the challenges 
of implementation in the context of South Sudan. This would include 
identifying the actors that retain political and military power in 
South Sudan and developing a strategy for their productive engagement 
in the system. This could be done through a conflict mapping exercise 
that analyzes the current in-country dynamics. As it remains unclear 
that the two political leaders have complete control over their forces 
operating in support of them, it may be difficult to identify the 
players that actively maintain power. Notably, without command and 
control, the removal of key political figures would not guarantee an 
end to violence. It would be especially important to identify the 
spoilers who could derail the process. Further, it would be important 
to determine detailed strategies on how to mollify these spoilers that 
are operating both in and outside of Juba. This is because if rival 
factions perceived a potential power vacuum, there could be additional 
fighting as groups seek to take control of territory within South 
Sudan.
    Based in part on the results of the conflict mapping, another step 
in creating a neo-trusteeship in South Sudan would be to onboard strong 
leadership for the trusteeship that contributes to popular support for 
the mechanism. Throughout South Sudan's struggle for independence, its 
political leadership has created political parties and military 
operations heavily dependent on their leadership and personality. These 
``cults of personality'' have resulted in persistent infighting and 
detracted from the parties' ability to operate effectively in 
governance roles. However, the leadership still has the strong support 
of the South Sudanese public, and even stronger support in South 
Sudan's highly polarized diaspora. A neo-trusteeship may benefit from 
the exit of the political leadership, as the trustee could focus on 
cultivating the next generation of South Sudanese leaders unencumbered 
by past political dynamics. But convincing the leadership that their 
exit is in South Sudan's best interest would be difficult. Former 
Ambassador Princeton Lyman has suggested that they might be offered 
amnesty from prosecution as an incentive to step down,\97\ but such 
amnesty would jeopardize post-conflict accountability efforts, 
especially in light of the strong interest in a hybrid court.
    A neo-trusteeship in South Sudan would also benefit from generating 
strong international support to sustain a neo-trusteeship. Starting at 
the onset, this process would require an increased military presence to 
create an environment where the trusteeship could be created. This is 
likely to be viewed as a violation of South Sudan's sovereignty, 
particularly given the current resistance to the regional AU force and 
the reluctance to commit troops. There continues to be uncertainty as 
to whether more troops would be provided to support the need for an 
increased military presence. In addition, if a peacekeeping force with 
a more robust mandate is installed, it will likely be heavily 
burdensome on the contributing countries. Policing South Sudan will be 
no easy feat, and the U.N./A.U. would need to be prepared for the 
challenge. Moreover, the neo-trusteeship would need to be prepared to 
address the complex economic crisis in South Sudan, including the 
backlog in pay to civil servants.
    As a neo-trusteeship's success will also rely on the perception of 
the U.N. in South Sudan, it would be important to consider how to 
increase its credibility. While those seeking protection by the U.N. 
tend to support the institution, those whose enemies are being 
protected are more likely to have a negative view of the U.N. If not 
addressed, the divisive perception of the U.N. could hamper the 
effectiveness of an AU/U.N. trusteeship in South Sudan, and potentially 
fuel more conflict.
                               conclusion
    Trusteeships provide an opportunity to intervene in a state long 
enough to enable it to develop politically and economically and to 
create security. While the dynamics of a trusteeship are complex, if 
undertaken with forethought to its legitimacy, clear definition, 
transparent and accountable implementation, and exit strategy, the 
trusteeship has the potential to be effective in shepherding a state 
through a conflict setting. Although there are several steps that would 
be required to create an environment in South Sudan where a neo-
trusteeship could be effective, a neo-trusteeship may be a viable means 
of creating peace and stability in the country.




----------
Notes:
 1. Paul R. Williams holds the Rebecca I. Grazier Professorship of Law 
        and International Relations at American University. Throughout 
        his career, Dr. Williams has assisted over two dozen states and 
        governments in international peace negotiations. His peace 
        negotiations work includes serving as a delegation member in 
        the Dayton negotiations (Bosnia-Herzegovina), Rambouillet/Paris 
        negotiations (Kosovo), and Podgorica/Belgrade negotiations 
        (Serbia/Montenegro) and advising parties to the Key West 
        negotiations (Nagorno-Karabakh), the Oslo/Geneva negotiations 
        (Sri Lanka), the Georgia/Abkhaz negotiations, and the Somalia 
        peace talks. Dr. Williams has contributed to the drafting of 
        multiple post-conflict constitutions including the transition 
        from a unitary to a federal system in Yemen, the crafting of a 
        democratic constitution in Iraq, and the constitution marking 
        the transition of Kosovo into a new independent state. Dr. 
        Williams is also experienced advising governments on issues of 
        state recognition, self-determination, and state succession 
        including advising the President of Macedonia and the Foreign 
        Minister of Montenegro. Dr. Williams co-founded the Public 
        International Law & Policy Group (PILPG) in 1995. PILPG is a 
        global pro-bono law firm that provides free legal assistance to 
        states and governments involved in peace negotiations, advises 
        states on drafting post-conflict constitutions, and assists in 
        prosecuting war criminals. PILPG has operated in 25 counties, 
        set up field offices in Georgia, Iraq, Kenya, Kosovo, Nepal, 
        Somaliland, South Sudan, Sri Lanka, Tanzania and Uganda, and 
        has members in nearly two dozen key cities around the globe.

 2. Princeton Lyman and Kate Almquist Knopf, To save South Sudan, put 
        it on life support, The Financial Times (Jul. 20, 2016).

 3. Hank Cohen, South Sudan should be placed under U.N. trusteeship to 
        aid development of viable self-government, African Arguments 
        (Jan. 6, 2014).

 4. John Tanza, Former Leader of S. Sudan's Ruling Party Seeks 
        International Intervention, Voice of America (Aug. 2, 2016).

 5. Tom Parker, The Ultimate Intervention: Revitalising the U.N. 
        Trusteeship Council for the 21st Century, Centre for European 
        and Asian Studies at Norwegian School of Management, 4 (Apr. 
        2003).

 6. U.N. Charter, art. 76.

 7. A.J.R. Groom, The Trusteeship Council: A Successful Demise, The 
        United Nations at the Millennium, The Principal Organs 142, 142 
        (Taylor, Groom, eds. 2000).

 8. See U.N. Charter, arts. 75-77; Henry H. Perritt, Jr., Structures 
        and Standards for Political Trusteeship, UCLA Journal of 
        International Law and Foreign Affairs 385, 387 (2003).

 9. United Nations Charter, Art. 77 (1945).

 10. United Nations, United Nations and Decolonization.

 11. Richard Caplan, A New Trusteeship?: The International 
        Administration of War-Torn Territories 11 (2014).

 12. General Framework Agreement for Peace in Bosnia and Herzegovina, 
        Bosn. & Herz-Croat.-Yugo., ann. 10, art. 2 (Dec. 14, 1995).

 13. The provisions of the Dayton Peace Agreement provided the High 
        Representative with the authority to reinterpret its mandate. 
        See Tim Banning, The Max Planck Yearbook of United Nations Law 
        of the High Representative in Bosnia and Herzegovina: Chasing a 
        Legal Figment, Goettingen Journal of International Law, 259, 
        265 (2014).

 14. United Nations, UNMIK Background.

 15. U.N. Security Council Resolution 1244, S/Res/1244 art. 10 (Jun. 
        10, 1999).

 16. Paul R. Williams and Francesca Jannotti Pecci, Earned Sovereignty: 
        Bridging the Gap Between Sovereignty and Self Determination, 40 
        Stan J. Int'l L. 1, 12-13 (2004).

 17. Henry H. Perritt, Jr., Structures and Standards for Political 
        Trusteeship, UCLA Journal of International Law and Foreign 
        Affairs 385, 402 (2003).

 18. United Nations Regional Information Centre for Western Europe, 
        Kosovo 15 years later: Kouchner hails the success of the U.N. 
        (Jul. 3, 2014).

 19. Dianne M. Criswell, Durable Consent and a Strong Transnational 
        Peacekeeping Plan: The Success of UNTAET in Light of Lessons 
        Learned in Cambodia, 11 Pacific Rim L. & Pol'y J. 578, 598-99 
        (2002).

 20. United Nations, East Timor--UNTAET Background.

 21. Rudiger Wolfrun, International Administration in Post-Conflict 
        Situations by the United Nations and Other International 
        Actors, 650, 663 Max Planck Yearbook of United Nations Law 9 
        (2005).

 22. Rudiger Wolfrun, International Administration in Post-Conflict 
        Situations by the United Nations and Other International 
        Actors, 650, 675 Max Planck Yearbook of United Nations Law 9 
        (2005).

 23. Michael Smith and Moreen Dee, Peacekeeping in East Timor, 
        International Peace Academy Occasional Paper Series 17 (2003).

 24. Gareth Evans, Peacekeeping in Cambodia: Lessons Learned, NATO 
        Review (August 1994).

 25. UNTAC Background, (last accessed Sept. 7, 2016).

 26. Gareth Evans, Peacekeeping in Cambodia: Lessons Learned, NATO 
        Review (August 1994).

 27. Agreement on Provisional Arrangements in Afghanistan Pending the 
        Re-Establishment of Permanent Government Institutions, Annex 
        II--Role of the United Nations During the Interim Period (Dec. 
        5, 2001).

 28. U.N. Security Council Resolution 1386, S/Res/1386 (2001), (Dec. 
        20, 2001).

 29. Coalition Provisional Authority Regulation 1, CPA/Reg/16 May 2003/
        01, sec. 1 (2003).

 30. Coalition Provisional Authority Regulation 1, CPA/Reg/16 May 2003/
        01, sec. 1 (2003).

 31. Henry H. Perritt, Jr., Structures and Standards for Political 
        Trusteeship, UCLA Journal of International Law and Foreign 
        Affairs 385, 407 (2003).

 32. Air Force University, Lessons Learned: Pre-War Planning for Post-
        War Iraq; U.N. Security Council Resolution 1483, S/RES/1483 
        (May 22, 2003).

 33. Air Force University, Lessons Learned: Pre-War Planning for Post-
        War Iraq; U.N. Security Council Resolution 1483, S/RES/1483 
        (May 22, 2003); Eyal Benvenisti and Guy Keinan, The Occupation 
        of Iraq: A Reassessment, Blue Book Series of the U.S. Naval War 
        College, p. 279 at n. 23 (2010).

 34. Coalition Provisional Authority Regulation 1, CPA/Reg/16 May 2003/
        01, sec. 1 (2003).

 35. Gareth Evans, Peacekeeping in Cambodia: Lessons Learned, NATO 
        Review (August 1994).

 36. U.N. Security Council Resolution 1244, S/Res/1244 (Jun. 10, 1999).

 37. United Nations Security Council Resolution 1264, S/Res/1264 (Sep. 
        15, 1999).

 38. Trevor Findlay, Cambodia: The Legacy and Lessons of UNTAC, 
        Stockholm International Peace Research Institution, p. 111 
        (1995).

 39. Trevor Findlay, Cambodia: The Legacy and Lessons of UNTAC, 
        Stockholm International Peace Research Institution, p. 112 
        (1995).

 40. Henry H. Perritt, Jr., Structures and Standards for Political 
        Trusteeship, UCLA Journal of International Law and Foreign 
        Affairs 385, 421 (2003).

 41. Henry H. Perritt, Jr., Structures and Standards for Political 
        Trusteeship, UCLA Journal of International Law and Foreign 
        Affairs 385, 421 (2003).

 42. Henry H. Perritt, Jr., Structures and Standards for Political 
        Trusteeship, UCLA Journal of International Law and Foreign 
        Affairs 385, 421 (2003).

 43. U.N. Security Council Resolution 1244, S/Res/1244 art. 11(b) (Jun. 
        10, 1999).

 44. Trevor Findlay, Cambodia: The Legacy and Lessons of UNTAC, 
        Stockholm International Peace Research Institution, p. 107 
        (1995).

 45. U.N. Security Council Resolution 1272 art. 1, S/Res/1272 (Oct. 25, 
        1999).

 46. Rudiger Wolfrun, International Administration in Post-Conflict 
        Situations by the United Nations and Other International 
        Actors, 650, 663 Max Planck Yearbook of United Nations Law 9 
        (2005).

 47. See Markus Benzing, Midwifing a New State: The United Nations in 
        East Timor, 9 Yearbook of United Nations Law 295, 322-24 
        (2005).

 48. General Framework Agreement for Peace in Bosnia and Herzegovina, 
        Bosn. & Herz-Croat.-Yugo., ann. 10, art. 2 (Dec. 14, 1995).

 49. Rudiger Wolfrun, International Administration in Post-Conflict 
        Situations by the United Nations and Other International 
        Actors, 650, 675 Max Planck Yearbook of United Nations Law 9 
        (2005).

 50. U.N. Security Council Resolution 1244, S/Res/1244 art. 10 (Jun. 
        10, 1999).

 51. Celeste J. Ward, The Coalition Provisional Authority's Experience 
        with Governance in Iraq: Lessons Learned, The United States 
        Institute of Peace 11 (2005).

 52. Gareth Evans, Peacekeeping in Cambodia: Lessons Learned, NATO 
        Review (August 1994).

 53. Gareth Evans, Peacekeeping in Cambodia: Lessons Learned, NATO 
        Review (August 1994).

 54. Trevor Findlay, Cambodia: The Legacy and Lessons of UNTAC, 
        Stockholm International Peace Research Institution, p. 111 
        (1995).

 55. UNTAC Background.

 56. United Nations Security Council Resolution 745, para. 2 (Feb. 28, 
        1992).

 57. Trevor Findlay, Cambodia: The Legacy and Lessons of UNTAC, 
        Stockholm International Peace Research Institution, p. 102 
        (1995).

 58. UNTAC Background.

 59. U.N. Security Council Resolution 1272, S/Res/1272 (October 25, 
        1999); U.N. Security Council Resolution 1244, S/Res/1244 art. 
        10 (Jun. 10, 1999).

 60. Tim Banning, The Max Planck Yearbook of United Nations Law of the 
        High Representative in Bosnia and Herzegovina: Chasing a Legal 
        Figment, Goettingen Journal Of International Law, 259, 266-268 
        (2014).

 61. Rudiger Wolfrun, International Administration in Post-Conflict 
        Situations by the United Nations and Other International 
        Actors, 650, 662 Max Planck Yearbook of United Nations Law 9 
        (2005).

 62. Tim Banning, The `Bonn Powers' of the High Representative in 
        Bosnia and Herzegovina: Chasing a Legal Figment, Goettingen 
        Journal of International Law, 259, 266-268 (2014).

 63. Tim Banning, The `Bonn Powers' of the High Representative in 
        Bosnia and Herzegovina: Chasing a Legal Figment, Goettingen 
        Journal of International Law, 259, 266-268 (2014).

 64. Tim Banning, The `Bonn Powers' of the High Representative in 
        Bosnia and Herzegovina: Chasing a Legal Figment, Goettingen 
        Journal of International Law, 259, 266-268 (2014).

 65. David Chandler, State-Building in Bosnia: The Limits of ``Informal 
        Trusteeship,'' 1 International Journal of Peace Studies 17, 27 
        (2006).

 66. Trevor Findlay, Cambodia: The Legacy and Lessons of UNTAC, 
        Stockholm International Peace Research Institution, p. 68 
        (1995).

 67. Trevor Findlay, Cambodia: The Legacy and Lessons of UNTAC, 
        Stockholm International Peace Research Institution, p. 71 
        (1995).

 68. Trevor Findlay, Cambodia: The Legacy and Lessons of UNTAC, 
        Stockholm International Peace Research Institution, p. 68 
        (1995).

 69. Henry H. Perritt, Jr., Structures and Standards for Political 
        Trusteeship, UCLA Journal of International Law and Foreign 
        Affairs 385, 422 (2003).

 70. Henry H. Perritt, Jr., Structures and Standards for Political 
        Trusteeship, UCLA Journal of International Law and Foreign 
        Affairs 385, 422 (2003).

 71. Henry H. Perritt, Jr., Structures and Standards for Political 
        Trusteeship, UCLA Journal of International Law and Foreign 
        Affairs 385, 422 (2003).

 72. UNMIK, Regulation No. 2006/12 on the Establishment of the Human 
        Rights Advisory Panel, UNMIK/REG/2006/12 (Mar. 23, 2006).

 73. Henry H. Perritt, Jr., Structures and Standards for Political 
        Trusteeship, UCLA Journal of International Law and Foreign 
        Affairs 385, 469 (2003).

 74. General Framework Agreement for Peace in Bosnia and Herzegovina, 
        Bosn. & Herz-Croat.-Yugo., ann. 10, art. 5 (Dec. 14, 1995).

 75. Henry H. Perritt, Jr., Structures and Standards for Political 
        Trusteeship, UCLA Journal of International Law and Foreign 
        Affairs 385, 469-70 (2003).

 76. Henry H. Perritt, Jr., Structures and Standards for Political 
        Trusteeship, UCLA Journal of International Law and Foreign 
        Affairs 385, 470-71 (2003).

 77. Henry H. Perritt, Jr., Structures and Standards for Political 
        Trusteeship, UCLA Journal of International Law and Foreign 
        Affairs 385, 471 (2003).

 78. Henry H. Perritt, Jr., Structures and Standards for Political 
        Trusteeship, UCLA Journal of International Law and Foreign 
        Affairs 385, 469-70 (2003).

 79. Rudiger Wolfrun, International Administration in Post-Conflict 
        Situations by the United Nations and Other International 
        Actors, 650, 665 Max Planck Yearbook of United Nations Law 9 
        (2005).

 80. Michael Smith and Moreen Dee, Peacekeeping in East Timor, 
        International Peace Academy Occasional Paper Series 25-26 
        (2003).

 81. U.N. Security Council Resolution 1244, S/RES/1244 annex 2, art. 4 
        (Jun. 10, 1999).

 82. United Nations Interim Administration Mission in Kosovo, UNMIK 
        Background.

 83. NATO, NATO's Role in Kosovo.

 84. U.N. Security Council Resolution 2089, S/RES/2089 art. 9 (Mar. 28, 
        2013).

 85. U.N. Security Council Resolution 2098, S/RES/2098 art. 9 (Mar. 28, 
        2013).

 86. N. Kulish & S. Sengupta, New U.N. Brigade's Aggressive Stance in 
        Africa Brings Success, and Risks, The New York Times (Nov. 12, 
        2013).

 87. U.N. Security Council Resolution 2098, S/RES/2098 art. 12 (Mar. 
        28, 2013).

 88. See Peace Security and Cooperation Framework for the Democratic 
        Republic of the Congo and the Region, S/2013/131 (Mar. 5, 
        2013); U.N. Security Council Resolution 2098 annex B (Mar. 28, 
        2013).

 89. See N. Kulish & S. Sengupta, New U.N. Brigade's Aggressive Stance 
        in Africa Brings Success, and Risks, The New York Times (Nov. 
        12, 2013); Martha Mutisi, Redefining Peacekeeping: The Force 
        Intervention Brigade in the Democratic Republic of Congo, The 
        Social Science Research Council (Jul. 26, 2015).

 90. N. Kulish & S. Sengupta, New U.N. Brigade's Aggressive Stance in 
        Africa Brings Success, and Risks, The New York TimeS (Nov. 12, 
        2013).

 91. U.N. Security Council Resolution 2304, S/Res/2304 (Aug. 12, 2016).

 92. Rudiger Wolfrun, International Administration in Post-Conflict 
        Situations by the United Nations and Other International 
        Actors, 650, 673 Max Planck Yearbook of United Nations Law 9 
        (2005).

 93. Rudiger Wolfrun, International Administration in Post-Conflict 
        Situations by the United Nations and Other International 
        Actors, 650, 651 Max Planck Yearbook of United Nations Law 9 
        (2005).

 94. Report of the Panel on U.N. Peace Operations (The Brahimi Report), 
        para. 81, A/55/305-S/2000/809 (Aug. 21, 2000); see also Rudiger 
        Wolfrun, International Administration in Post-Conflict 
        Situations by the United Nations and Other International 
        Actors, 650, 651 Max Planck Yearbook of United Nations Law 9 
        (2005).

 95. Rudiger Wolfrun, International Administration in Post-Conflict 
        Situations by the United Nations and Other International 
        Actors, 650, 673 Max Planck Yearbook of United Nations Law 9 
        (2005)

 96. Rudiger Wolfrun, International Administration in Post-Conflict 
        Situations by the United Nations and Other International 
        Actors, 650, 674 Max Planck Yearbook of United Nations Law 9 
        (2005).

 97. Princeton Lyman and Kate Almquist Knopf, To save South Sudan, put 
        it on life support, The Financial Times (Jul. 20, 2016)


                               __________





                                  [all]



</pre></body></html>
